<html>
<title> - EXTRAJUDICIAL KILLINGS IN THE PHILIPPINES: STRATEGIES TO END THE VIOLENCE</title>
<body><pre>[Senate Hearing 110-290]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-290
 
   EXTRAJUDICIAL KILLINGS IN THE PHILIPPINES: STRATEGIES TO END THE 
                                VIOLENCE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
40-811                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                  BARBARA BOXER, California, Chairman

JOHN F. KERRY, Massachusetts         LISA MURKOWSKI, Alaska
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARACK OBAMA, Illinois               DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     1
Farrar, Jonathan D., Principal Deputy Assistant Secretary, Bureau 
  of Democracy, Human Rights and Labor, Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    10
Hilao-Enriquez, Marie, secretary general, Alliance for the 
  Advancement of People's Rights in the Philippines (KARAPATAN), 
  Quezon City, Philippines.......................................    38
    Prepared statement...........................................    40
John, Eric G., Deputy Assistant Secretary, Bureau of East Asian 
  and Pacific Affairs, Department of State, Washington, DC.......     4
    Prepared statement...........................................     6
    Response to question submitted by Senator Lugar..............    57
Kumar, T., advocacy director for Asia and the Pacific, Amnesty 
  International, USA, Washington, DC.............................    18
    Prepared statement...........................................    20
Martin, G. Eugene, executive director, Philippine Facilitation 
  Project, U.S. Institute of Peace, Washington, DC...............    29
    Prepared statement...........................................    31
Murkowski, Hon. Lisa, U.S. Senator from Alaska, opening statement     3
Pascua, Bishop Eliezer, general secretary, the United Church of 
  Christ in the Philippines, Quezon City, Philippines............    34
    Prepared statement...........................................    35

              Additional Material Submitted for the Record

Alston, Professor Phillip, Special Rapporteur of the U.N. Human 
  Rights Council on Extrajudicial, Summary or Arbitrary 
  Executions--Summary Report, Manila, February 21, 2007..........    53
Gaa, Hon. Willy C., Philippine Ambassador to the United States, 
  prepared statement.............................................    51
Responses of Eric John and Jonathan Farrar to questions submitted 
  by Senator Norm Coleman........................................    58

                                 (iii)

  


   EXTRAJUDICIAL KILLINGS IN THE PHILIPPINES: STRATEGIES TO END THE 
                                VIOLENCE

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee) presiding.
    Present: Senators Boxer, Webb, and Murkowski.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon, everybody. I'm Senator 
Barbara Boxer and I am the Chair of the Subcommittee on East 
Asian and Pacific Affairs. I'm very pleased to be here, 
chairing my first hearing. I know there are many people 
interested in this.
    I'm sure you know the rules of the committee are that we 
want everyone to be respectful of all the witnesses and that 
means that we don't have any yelling or screaming or clapping 
or booing or hissing or cheering.
    And I'm very, very pleased that we are having today's 
hearing. It's very important. We're going to run a very tight 
ship here. We're going to keep our witnesses to 5 minutes. And 
when you're about there, I will tell you to summarize. And we 
will, of course, place your entire statement in the record, and 
we will accept--we may well send you some questions if time 
runs out, because we need to stop at 5 to 4.
    So we'll be getting a lot accomplished here in a relatively 
short period of time. I do expect Senator Murkowski to join us 
shortly. And when she does, I will turn to her at the 
appropriate time for her opening statement, if she has one.
    Well, I'm sure most of you know that today the Senate 
Foreign Relations Subcommittee meets to investigate reports of 
extrajudicial killings in the Philippines, and examine 
strategies to help end the violence there. The people of the 
United States and the Philippines enjoy a very close 
relationship and friendship that is deeply valued on both 
sides. Our nations have a strong bond that's supported and 
celebrated by 3 million Americans of Philippine ancestry that 
live in the United States today. And I am proud to say that 
more than 1 million Filipino-Americans have made California 
their home.
    I, myself, visited the Philippines while I was a member of 
the House of Representatives. It was just after Marcos was 
overthrown and Cory Aquino became the leader. It was a very 
exciting time. It was 1986. So I, myself, feel very strong ties 
to the hopes, dreams, and aspirations of the people of the 
Philippines and of all their family members that I represent in 
California.
    During World War II, 100,000 soldiers from the Philippine 
Commonwealth Army fought along side United States and allied 
forces in the Pacific. Today United States military forces are 
working with the Philippine Armed Forces to combat Abu Sayyaf, 
an Islamist terrorist organization responsible for many acts of 
violence, including the beheading of one of my constituents in 
2001.
    Maintaining strong bilateral ties is very important to both 
our nations. And it's in that spirit that we address 
extrajudicial killings in the Philippines. And before I forget 
to do it, I want to place into the record the statement 
submitted by the Philippine Ambassador to the United States, 
Willy Gaa. So, we will place that in the record.
    Over the past 6 years, hundreds of such killings have taken 
place throughout the Philippines. Those targeted have included 
journalists, religious leaders, political figures, human rights 
activists, and union leaders. For too long the Government of 
the Philippines has not taken sufficient action, in my opinion, 
to address extrajudicial killings and bring those responsible 
to justice.
    Last August, pressure from international human rights 
groups, foreign governments, and political leaders forced the 
government of President Arroyo to launch an investigation into 
the killings that was headed by retired Supreme Court Justice, 
Jose Melo. The Melo Commission Report, which was made public 
last month, found that the killings of activists appear to be 
part of, ``an orchestrated plan,'' and that the Philippine 
National Police has made little progress in investigating or 
prosecuting cases.
    Last month, after a 10-day fact-finding mission to the 
Philippines, Phillip Alston, the U.N. Special Rapporteur on 
Extrajudicial Summary or Arbitrary Executions, released a 
statement in which he said the Philippine Armed Forces were, 
``In a state of almost total denial,'' on the need to address, 
``the significant number of killings which have been 
convincingly attributed to them.'' And that a ``culture of 
impunity'' exists between the Philippine Justice System. In 
response, the Philippine Government has issued statements 
vowing to solve the killings. But, it remains to be seen if 
these words will be followed by real and tangible actions.
    I am pleased that the U.S. Ambassador in Manila, Kristie 
Kenney, has offered the support of the United States to stop 
these murders and bring those guilty to justice.
    Today, we welcome to the committee two members of the U.S. 
State Department to share additional details about the United 
States offer of assistance, and the response of the Philippine 
Government.
    Mr. Eric John is the Deputy Assistant Secretary of State 
for East Asian and Pacific Affairs. And Mr. Jonathan Farrar is 
the Principal Deputy Assistant Secretary of State for 
Democracy, Human Rights, and Labor.
    We will also be joined by a distinguished second panel of 
nongovernmental witnesses to discuss this issue. We will hear 
from Mr. T. Kumar, who's the advocacy director for Amnesty 
International. In August 2006, Amnesty International released a 
report on the extrajudicial killings in the Philippines, which 
included a series of important recommendations to end the 
violence, and guarantee justice for the victims.
    Mr. G. Eugene Martin, executive director of the Philippine 
Facilitation Project at the U.S. Institute of Peace is a former 
Foreign Service officer who served twice in the Philippines. 
First, as a political military officer and later as Deputy 
Chief of Mission. Mr. Martin will share his thoughts on the 
root causes of violence in the Philippines and prospects for a 
peaceful settlement.
    Finally, we are joined by two witnesses from the 
Philippines, Bishop Eliezer--if I mangle this name, please 
forgive me--Pascua, is that right? Pascua, is the general 
secretary of the United Church of Christ in the Philippines. 
More than a dozen workers from his church have been killed in 
violence since 2001.
    Ms. Marie Hilao-Enriquez, is the general secretary of 
KARAPATAN, a human rights organization in the Philippines which 
estimates that more than 800 people have lost their lives to 
extrajudicial violence since 2001. And we know that there's 
debate about this number, but we will look into it, try to get 
to the bottom of it.
    Now I want to turn to my really dear friend, ranking member 
of this subcommittee, Senator Lisa Murkowski, who is the former 
chairman, has extensive expertise in the region. I do look 
forward to working with you, Senator, during the 110th 
Congress, and I turn to you now for your opening statement.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Senator Murkowski. Thank you, Madame Chairman, and I do not 
have a detailed statement this afternoon. I'm looking forward 
to the testimony of the witnesses.
    I appreciate your leadership on this issue and bringing it 
before the subcommittee. I, too, look forward to working with 
you on issues of concern within the region. We've had 
opportunities in the past to have Mr. John before the 
subcommittee; a great deal of expertise there to offer us.
    But it is, it is a region--I think it's fair to say--that 
if there are hotspots outside of the Middle East it is in this 
region of East Asia and the Pacific. And the hearing that we 
have this afternoon, I think, is just the beginning of many 
where hopefully we will be able to shine that spotlight, not 
only on the issue, but move proactively as a committee to make 
a positive difference on this issue and many others.
    And so, with that Madame Chairman, I'm eager to hear the 
comments from the witnesses. I do apologize, I'm not going to 
be able to stay for the whole thing, but look forward to 
working with you on this issue and others.
    Thank you.
    Senator Boxer. Absolutely, and I will brief you after this 
hearing, personally.
    Mr. John, why don't you begin and we'll hold you to 5 
minutes and then we'll put your whole statement in the record.

STATEMENT OF ERIC G. JOHN, DEPUTY ASSISTANT SECRETARY FOR EAST 
 ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. John. Thank you very much Senator Boxer, Senator 
Murkowski. Thank you for inviting me to testify today. Let me 
extend my congratulations to the new members of the committee, 
and I look forward to working with the committee in the future.
    I'm also glad to have the opportunity to appear before you 
today with my colleague, Mr. Farrar from the Bureau of 
Democracy, Rights, and Labor.
    Before addressing the main topic of this hearing, I would 
like to say a few words about United States-Philippine 
relations. As you know, the United States has a long and warm 
relationship with the Philippines dating back more than a 
century. The Philippines is a vibrant democracy and one of five 
treaty--United States treaty allies in the Asia Pacific. Our 
soldiers fought heroically side by side in World War II and are 
working together today to combat international terrorism.
    The United States is the Philippines largest investor, 
trading partner, and provider of foreign assistance. Our 
relations are undergirded by significant people-to-people 
connections in the form of more than 3 million Filipinos in the 
United States and more than 100,000 American citizens living in 
the Philippines.
    Today our Philippine allies are enjoying solid economic 
growth, working on a peace agreement with Muslim separatists in 
Mindanao and achieving unprecedented success against al-Qaeda-
linked terrorists responsible for the deaths of hundreds of 
innocent civilians and the gruesome murders of American 
citizens.
    One negative factor in this otherwise positive picture is 
the increase in reports of extrajudicial killings, the subject 
of this hearing. Unfortunately, political violence is not a new 
phenomenon in the Philippines. Extrajudicial killings committed 
by the security forces, the terrorists, New People's Army, or 
others were common during the Marcos dictatorship and have 
continued--albeit with less frequency--since that time. 
However, over the last couple years we have seen a troubling 
increase in the reports of these killings.
    As friends and allies, we are concerned about such 
killings--whoever is responsible--but particularly about 
allegations that members of the Security Forces have been 
involved. There's a range of numbers of victims, as you noted, 
but let me state unequivocally that even one such killing is 
too many.
    We take this problem seriously and are committed to helping 
our Philippine allies in bringing those responsible to justice. 
We are encouraged that President Arroyo has taken several steps 
to address this problem, including establishment of a police 
task force, called Task Force Usig, to investigate the 
killings, as well as a commission under leadership of Justice 
Melo.
    The Melo Commission has examined the problem and made 
recommendations on which the Government acted promptly--has 
promptly acted. The Philippine Government has also invited the 
U.N. Special Rapporteur Alston to inquire into the issue. In 
our judgment, these actions represent more than previous 
Philippine administrations have taken to address the problem.
    Concerning the report of Professor Alston, I would note 
that his report cites the Philippine Government's recognition 
of the gravity of the problem. It expresses concern about the 
views of the Armed Forces of the Philippines, AFP, regarding 
the problem, and states that the various measures ordered by 
President Arroyo in response to the Melo Commission Report 
constitute important first steps, but much remains to be done.
    The Melo Commission Report does conclude that 
circumstantial evidence links some elements of the military to 
the killings, but given the lack of witnesses there is 
insufficient evidence to support successful prosecutions or 
convictions. The Commission's recommendations include: Creation 
of an independent civilian investigative agency, training for 
prosecutors, creation of special courts to handle these cases, 
enhancement of the witness protection program, increasing 
investigative capabilities of the police, and orientation and 
training for the security forces.
    Moreover, the AFP has directed new human rights training. 
The Department of Justice has strengthened and expanded their--
strengthened and expanded the witness protection program, and 
the Philippine Supreme Court has established vessel courts to 
handle the cases.
    Now, the steps that the United States Government is taking 
include an ongoing and dynamic dialog with Philippine officials 
at all levels of governments. Not only on the urgent need to 
address the immediate problem, but also more broadly on issues 
of human rights, rule of law, and law enforcement. United 
States Embassy officials vigorously reach out to Philippine 
contacts in the military, the law enforcement community, the 
judiciary, the human rights sector, and civil society, to make 
these points and determine new ways the United States 
Government could be additionally helpful.
    Ambassador Kenney has repeatedly spoken publicly, as well 
as at several military venues, against extrajudicial killings, 
and in advocacy of ensuring that anyone responsible for such a 
crime faces justice.
    We'll soon begin a training program for 40 Philippine 
investigators and prosecutors from the 10 areas of the country 
with the most extrajudicial killings to improve their skills 
and understanding. In addition to the immediate efforts, we 
have provided longstanding support to the AFP and Philippine 
National Police and Judiciary. And it has included human rights 
training for those members. Our support of Philippine defense 
reform, to strengthen professional and effective military, law 
enforcement, and our development assistance does help the 
Philippines judiciary for case management.
    Senator Boxer. Just wrap it up at this point.
    Mr. John. Sure. And I just want to assure you that we are 
committed to working with the Philippine Government, supporting 
them, and pushing for resolution of these cases, and an end to 
the extrajudicial killings in the Philippines.
    [The prepared statement of Mr. John follows:]

Prepared Statement of Eric G. John, Deputy Assistant Secretary, Bureau 
 of East Asian and Pacific Affairs, Department of State, Washington, DC

    Senator Boxer, Senator Murkowski, and distinguished members of the 
subcommittee, thank you for inviting me to testify today on the 
situation in the Philippines. Let me extend my congratulations to the 
new members of this committee; I look forward to working with all of 
you. I am glad to have the opportunity to appear before you with my 
colleague, Principal Deputy Assistant Secretary Jonathan Farrar from 
the Department of State's Bureau of Democracy, Human Rights and Labor.
    As you know, the United States has a long and warm relationship 
with the Philippines dating back more than a hundred years. The 
Philippines is a vibrant democracy, and one of five U.S. treaty allies 
in the Asia-Pacific region. Our soldiers fought heroically side by side 
in World War Two and are working side by side today to combat 
international terrorism. The United States is the Philippines' largest 
investor, trading partner, and provider of foreign assistance. Our 
relations are undergirded by significant people-to-people connections 
in the form of the more than 3 million Filipinos resident in the United 
States and the more than 100,000 American citizens living in the 
Philippines.
    Today, our Philippine allies are enjoying solid economic growth, 
working on a peace agreement with Muslim separatists in Mindanao, 
looking to bolster their democracy via congressional elections in May, 
and achieving unprecedented success against al-Qaeda-linked terrorists 
responsible for the deaths of hundreds of innocent civilians and the 
gruesome murders of American citizens.
    One negative factor in this otherwise positive picture is the 
increase in reports of extrajudicial killings, the subject of this 
hearing. Unfortunately, political violence is not a new phenomenon in 
the Philippines. The so-called ``Huk Rebellion'' in the 1940s and 1950s 
resulted in thousands of deaths. The Communist New People's Army (NPA), 
a U.S.-designated Foreign Terrorist Organization, has been seeking the 
violent overthrow of the government since 1968 and continues to sow 
violence and terror in the country.
    Extrajudicial killings, committed by the security forces, the NPA, 
or others, were common during the Marcos dictatorship, and have 
continued, albeit with less frequency, since that time. Over the past 1 
to 2 years, however, we have seen a troubling increase in reports of 
extrajudicial killings.
    As friends and allies, we are concerned about such killings, 
whoever is responsible, but particularly about allegations that members 
of the security forces have been involved. There is disagreement about 
the numbers of victims, but of course even one such killing is too 
many.
    We take this problem seriously and are committed to helping our 
Philippine allies in bringing those responsible to justice. We are 
encouraged by the steps that the Philippine Government has taken to 
date, indeed, we judge that no Philippine administration has done as 
much substantively and institutionally as what this one has done over 
the past year, but we will continue to make clear that more progress is 
essential and that we stand ready to be of assistance to Philippine 
authorities.
    Addressing extrajudicial killings in a serious, effective way and 
ensuring that Philippine authorities bring those responsible to justice 
is important to our relationship and, of course, to the Philippines' 
own democratic development.
    We are encouraged that President Arroyo has taken several steps to 
address this problem, including establishing a police task force, 
called Task Force Usig (``to prosecute''), to investigate the killings 
and to file charges against the murderers, as well as a commission 
under the leadership of former Philippine Supreme Court Justice Melo. 
The Melo Commission has examined this problem and made policy 
recommendations, on which the government has promptly acted. The 
Philippine Government also invited U.N. Special Rapporteur on 
Extrajudicial, Summary, and Arbitrary Killings Professor Philip Alston 
to inquire into the issue.
    Concerning the report of U.N. Special Rapporteur Alston, I would 
note that in his report he cites the Philippine Government's 
recognition of the gravity of the problem, expresses concern about the 
views of the Armed Forces of the Philippines (AFP) regarding the 
problem, and states that the various measures ordered by President 
Arroyo in response to the Melo Commission report constitute important 
first steps, but much remains to be done.
    The Melo Commission report, which was recently released to the 
public, concludes that circumstantial evidence links ``some elements'' 
of the military to the killings, but given the lack of witnesses there 
is insufficient evidence to support successful prosecutions or 
convictions; there is no official or sanctioned policy by the military 
or its civilian superiors to resort to illegal liquidations; there is 
no definitive accounting of the actual number of killings, but ``even 
one is too many''; the killing of journalists is mostly attributable to 
reprisals from politicians, warlords, or business interests, rather 
than agents of the government; and prosecutions have been more 
successful when there is a greater willingness of witnesses to testify. 
The report also states that President Arroyo's resolve to stop these 
killings has been made clear, both in public statements and through 
actions such as the creation of Task Force Usig and the Melo Commission 
itself.
    The Commission's recommendations include: Creation of an 
independent civilian investigative agency with authority to execute 
warrants and make arrests; training for prosecutors; creation of 
special courts to handle these cases; enhancement of the witness 
protection program; increasing the investigative capabilities of the 
police; and orientation and training for security forces.
    Following the issuance of the Melo Commission report, the 
Philippine Government took several important steps. The AFP has issued 
a new directive reiterating the principle of command responsibility and 
established its own Human Rights Office to investigate--along with the 
Philippine Commission on Human Rights--cases in which involvement by 
military elements is alleged. The Philippine Department of Justice 
strengthened and expanded the government's witness protection program. 
At President Arroyo's request, the Philippine Supreme Court has 
established special courts to handle these cases. President Arroyo also 
instructed the Philippine Department of Justice and the Presidential 
Human Rights Committee to prioritize cases for trials by these special 
courts. In a statement, President Arroyo said that ``cases that are 
strong enough to be brought to court should be prosecuted effectively 
and immediately to instill confidence in the process we have put in 
place,'' while emphasizing that ``due process is the watchword as we 
bring these killers to justice.''
    We believe that the Melo report is a useful assessment of scope of 
the problem facing the Philippines and measures that can be taken to 
address it. Our Ambassador in Manila, Kristie Kenney, has stated that 
the Government of the Philippines has issued ``a serious action plan 
and we would be glad to provide assistance in helping them implement 
it.'' She met with the members of the Melo Commission on March 5 to 
discuss their next steps and to explore ways the U.S. Government could 
be additionally helpful.
    The steps that we are taking include an ongoing and dynamic dialog 
with Philippine officials at all levels of government on issues of 
human rights, rule of law, and law enforcement. U.S. Embassy officials 
vigorously reach out to Philippine contacts in the military, the law 
enforcement community, the judiciary, the human rights sector, and 
civil society to make these points and to determine new ways the U.S. 
Government could be additionally helpful. In this dialog, we have 
reiterated our concerns over extrajudicial killings and strongly urged 
Philippine officials to take additional steps such as those recommended 
by the Melo Commission. Ambassador Kenney has repeatedly spoken 
publicly as well as at several military venues against extrajudicial 
killings and in advocacy of ensuring that anyone responsible for such a 
crime faces justice.
    We will soon conduct a training program for 40 Philippine 
investigators and prosecutors from the 10 areas of the country with the 
most extrajudicial killings to improve their skills and understanding. 
We are also looking into making additional grants to the Philippine 
Commission on Human Rights to support its nationwide investigatory 
efforts. We understand that the Philippine Government has reached out 
to members of the European Union for assistance in implementing the 
conclusions of the Melo report. I have reached out to representatives 
of the European Union here in Washington to underscore our support for 
the Philippine Government's request. I have also repeatedly addressed 
this matter with the Philippine Ambassador to the United States.
    In addition to these immediate efforts, the United States has 
provided longstanding support for institutional reform within the AFP 
and the Philippine National Police, as well as the Philippine 
judiciary. This assistance has included human rights training for 
Philippine security forces in country, as well as at the International 
Law Enforcement Academy in Bangkok and at U.S. military and FBI 
training academies.
    In compliance with the Leahy amendment, we work closely with the 
Philippine Commission on Human Rights to vet all Philippine military 
and law enforcement officials who undergo U.S. training.
    The United States is also a firm supporter of Philippine Defense 
Reform, which aims to strengthen a professional and effective military 
that respects and protects civil liberties and human rights. We do this 
through ongoing training and exchange of ideas and information on 
issues relating to human rights. Also under the Philippine Defense 
Reform program, a U.S. expert has started working with the military's 
Office of the Inspector General to improve its internal capabilities.
    The AFP is doing superb work in battling al-Qaeda-linked 
terrorists. The close U.S. relationship with the AFP is contributing to 
its effectiveness, and has resulted in an important component that 
emphasizes civil-military operations and human rights.
    On the law enforcement side of the ledger, several U.S. agencies 
work with their Philippine partners to provide training in case 
management and investigative techniques. These programs routinely 
include human rights training as an integral part of the curriculum. A 
new U.S. Senior Law Enforcement Advisor and his staff are now stationed 
at the Philippine police headquarters to assist in its internal 
transformation program to make it a more transparent, accountable, and 
effective institution and to provide better investigatory tools. U.S. 
law enforcement agencies also provide technical assistance to the 
Philippine Bureau of Customs, Bureau of Immigration and Deportation, 
and Philippine Coast Guard in areas relating to national security and 
border protection.
    U.S. development assistance helps the Philippine Judiciary to 
improve systems for case management, assists civil society groups to 
participate in legal and judicial reform discussions, and provides 
training for Philippine judges and lawyers on the new code of conduct 
developed by the Supreme Court.
    Beyond our discussions with Philippine officials and our training 
efforts, we are in close contact with civil society groups and human 
rights organizations in the Philippines, and we document our views on 
human rights in the Philippines in the annual State Department Country 
Report on Human Rights Practices. I would note that the Country Report 
is taken seriously in Manila and that the Philippine Government's 
spokesman called it, ``constructive criticism from a time-honored 
ally.'' Our efforts are aimed at strengthening the rule of law, 
professionalizing law enforcement and judicial authorities, and 
empowering civil society, so these institutions can play a more 
effective and professional role in investigating and prosecuting such 
crimes.
    To conclude, we take the problem of extrajudicial killings in the 
Philippines seriously and are committed to helping our Philippine 
allies as they bring those responsible to justice. We are encouraged by 
the steps that the Philippine Government has taken to date, but we will 
continue to make clear that more progress is essential and that we 
stand ready to be of additional assistance to Philippine authorities.
    Thank you. I would be happy to answer your questions.

    Senator Boxer. Thank you so much, Mr. John.
    Yes, sir, Mr. Farrar.

  STATEMENT OF JONATHAN D. FARRAR, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Farrar. Thank you very much, Madame Chairman and 
Senator Murkowski, for holding the hearing today on 
extrajudicial killings in the Philippines.
    The hearing's well timed to examine the findings of the 
recently released Melo and Alston reports. And last week, 
Secretary Rice released the Department of State's country 
reports on human rights practices for 2006, which is prepared 
by my bureau, working with our embassies overseas, and our 
colleagues in Washington.
    This year's theme of the reports is ``Defend the 
Defenders'' of human rights, a theme very appropriate for 
today's hearing. The report highlights two initiatives 
announced by the Secretary in December, the guiding principals 
on NGOs, and the Human Rights Defenders Fund.
    The NGO principles were developed in consultation with our 
own NGOs in the United States. They will guide our assessment 
of the actions of other governments. We hope they will rally 
worldwide support, including in democracies such as the 
Philippines, for embattled NGOs by serving as a resource for 
governments, international organizations, civil society, and 
journalists.
    Our Human Rights Defenders Fund will quickly disperse small 
grants to help human rights defenders facing extraordinary 
needs as a result of government repression. I'd like to be very 
clear. There is no tension and no contradiction between 
improving the protection of human rights, and assisting the 
Government of the Philippines to combat terrorist threats.
    As the President said in January in his State of the Union 
Address, what every terrorist fears most is human freedom. 
Societies where government, where men and women make their own 
choices, answer to their own conscious, and live by their 
hopes, instead of their resentments.
    Our 2006 report on the Philippines noted a number of 
arbitrary, unlawful, and extrajudicial killings, apparently by 
elements of the security services. And political killings, 
including killings of journalists, by a variety of actors. 
Although sources differ on the numbers, the rise in suspect 
extrajudicial killings since 2001 is undisputed. Many killings 
went unresolved and unpunished contributing to a climate of 
impunity. We commend President Arroyo for creating both Task 
Force Usig to investigate specific cases, and the Melo 
Commission to make policy and legal reform recommendations. 
These are important initial steps.
    The Melo Commission describes evidence of abuses by 
security services, and failure by some NGOs to cooperate with 
the Commission. Our NGO principles speak to the 
responsibilities of both governments and NGOs. We are pleased 
that the Arroyo administration decided to make the Melo 
Commission finding public, and is taking steps to implement 
Commission recommendations.
    Deputy Assistant Secretary John has described steps our 
Embassy in Manila has taken to address these human rights 
concerns. It is important that we continue to work with the 
Government of the Philippines to make sure the initiatives they 
have pledged to undertake are implemented effectively. We know 
from experience in other countries that implementation is 
crucial, and often times difficult, and requires a long-term 
commitment.
    Our bureau meets regularly with a wide spectrum of NGOs, 
American and Philippine, active on these issues. For example, I 
met recently with Ms. Joanne Carney, an NGO activist who, at 
the time, was serving as a distinguished fellow at Colby 
College. Ms. Carney came to Colby following threats on her life 
and on her NGO, the Cordillera People's Alliance.
    We are committed to using our bureau's human rights and 
democracy fund to monitor and promote human rights in the 
Philippines. Our fund works through open competition, in which 
we solicit proposals from U.S.-based NGOs to implement 
innovative projects worldwide. We're using this fund now, to 
strengthen the Philippine Commission on Human Rights, and also 
to improve the Madrasah system, by educating leaders of schools 
in the southern Philippines.
    I'd like to correct something from the written testimony we 
submitted, which said there was a HRDF grant awaiting 
congressional approval to work with Philippine media to improve 
reporting on human rights, and to create a national association 
of human rights journalists. I learned this morning that the 
notification has not been delivered yet. So let me just say 
that we're excited about the project and hope you'll review it 
favorably, once it's received.
    Finally, I can assure we will look for opportunities to 
include the Philippines in some of our upcoming fiscal year 
2007 requests for grant proposals.
    In conclusion, the Melo Commission stated well, that you 
can not build democracy or combat terrorism through abuse of 
human rights. As Secretary Rice noted in her comments last week 
on our human rights reports, liberty and human rights require 
state institutions that function transparently and accountably. 
A vibrant civil society, an independent judiciary legislature, 
a free media, and security forces that can uphold the rule of 
law, and protect the population from violence and extremism.
    We look forward to working with Congress on these issues, 
both in the Philippines and elsewhere. I'd be pleased to take 
you questions.
    Thank you.
    [The prepared statement of Mr. Farrar follows:]

   Prepared Statement of Jonathan Farrar, Principal Deputy Assistant 
 Secretary, Bureau of Democracy, Human Rights and Labor, Department of 
                         State, Washington, DC

    Madame Chairman Boxer, Senator Murkowski, and members of the 
subcommittee, thank you for holding this hearing to focus on the 
problem of extrajudicial killings in the Philippines. This hearing is 
well-timed to examine the findings of the recently released Melo and 
Alston Reports, and Secretary Rice's March 6 release of the Department 
of State ``Country Reports on Human Rights Practices for 2006.''
    This year's theme of the 2006 Country Reports is ``Defend the 
Defenders'' of human rights, a theme very appropriate to today's 
hearing. The reports highlighted two initiatives announced by the 
Secretary last December: The ``Guiding Principles on Non-Governmental 
Organizations'' and the Human Rights Defenders Fund.
    The 10 guiding principles on NGOs' concern the treatment by 
governments of nongovernmental organizations under the relevant 
international conventions. These core principles were developed in 
consultation with our own NGOs, and will guide our approach to, and our 
assessment of, the actions of other governments. The principles 
complement lengthier, more detailed U.N. and other international 
documents addressing human rights defenders. We hope they will rally 
worldwide support for embattled NGOs by serving as a resource for 
governments, international organizations, civil society groups, and 
journalists. We will look to democracies like the Philippines to 
embrace these NGO principles.
    The Human Rights Defenders Fund will be administered by our bureau 
and will quickly disburse small grants to help human rights defenders 
facing extraordinary needs as a result of government repression. This 
funding could, for example, cover legal defense, medical costs, or the 
pressing needs of activists' families.
    As Secretary Rice said on March 6: ``Liberty and human rights 
require state institutions that function transparently and accountably, 
a vibrant civil society, an independent judiciary and legislature, a 
free media, and security forces that can uphold the rule of law and 
protect the population from violence and extremism.''
    Let me be clear: There is no tension, and no contradiction, between 
improving the protection of human rights in the Philippines and 
assisting the Government of the Philippines to combat terrorist 
threats.
    Turning specifically to the human rights situation in the 
Philippines, in our 2006 Country Reports we noted a number of 
arbitrary, unlawful, and extrajudicial killings apparently by elements 
of the security services, and political killings, including killings of 
journalists, by a variety of actors. Despite intensified government 
efforts during the year to investigate and prosecute these cases, many 
of these killings went unsolved and unpunished, contributing to a 
climate of impunity. Although various sources differ on the numbers, 
the rise in suspect extrajudicial killings since 2001 is undisputed.
    The report notes that members of the security services committed 
acts of physical and psychological abuse on suspects and detainees, 
including instances of torture. Arbitrary or warrantless arrests and 
detentions were common. Trials were delayed and procedures were 
prolonged. Prisoners awaiting trial and those already convicted were 
often held under primitive conditions. Corruption remains a problem in 
the criminal justice system, including police, prosecutorial, and 
judicial organs. Human rights activists were often subject to 
harassment by local security forces.
    Deputy Assistant Secretary John has described a number of steps the 
Government of the Philippines has taken to address the serious problem 
of extrajudicial killings. We commend President Gloria Arroyo for 
creating Task Force Usig to investigate specific cases, and the Melo 
Commission to make policy and legal reform recommendations. These are 
important initial steps to address this serious issue.
    The Melo Commission Report describes evidence of abuses by security 
services, and failure by some NGOs to cooperate responsibly with the 
Commission. Our NGO principles speak to the responsibilities of both 
governments and NGOs. We were pleased that the Arroyo administration 
decided to make the Melo Commission findings public and is taking steps 
to implement commission recommendations. We also note that President 
Arroyo invited the U.N. Special Rapporteur on Extrajudicial, Summary or 
Arbitrary Executions, Mr. Phillip Alston, to conduct a 10-day fact-
finding mission in February.
    Deputy Assistant Secretary John has described a number of steps our 
Embassy in Manila has taken to address these human rights concerns. It 
is important that we continue to work with the Government of the 
Philippines to make sure that the initiatives they have pledged to 
undertake are implemented effectively. We know from experience in other 
countries that implementation is crucial and often-times difficult, and 
requires a long-term commitment.
    Our bureau meets regularly with a wide spectrum of NGOs, American 
and Philippine, active on these issues. We also meet with 
representatives of the Philippine Government to address our concerns. I 
met recently with the Philippine Ambassador, Ambassador Willy Gaa, and 
his country team during our preparations for the Country Reports, and 
prior to the release of the Melo Commission Report. In this meeting, we 
urged progress in the investigation and prosecution of cases by Task 
Force Usig, and prompt release of the then-pending Melo Commission 
Report. We will continue to follow up.
    Last fall our Bureau met with representatives of the U.S. Episcopal 
Church Peace and Justice Ministries and the Episcopal Asian-American 
Ministries to hear their concerns about the October murder of Bishop 
Alberto Ramento, a prominent Philippine national church leader and 
human rights activist. At the time of Ramento's death, Brian Campbell, 
a U.S. human rights labor activist and attorney, wrote that, ``Bishop 
Ramento was a staunch human rights advocate who worked tirelessly to 
support impoverished workers and farmers since the time of the Marcos 
dictatorship.'' On December 6, Mr. Campbell was denied entry to the 
Philippines under the rationale of tighter security imposed prior to 
the recent ASEAN summit. At the time of his denied entry, Mr. Campbell 
told us that he saw his name on a ``black list,'' along with a number 
of other international human rights workers, which Philippine 
immigration officials used to deny his admission into the country. In 
my meeting with Ambassador Gaa, we expressed our concern over the 
treatment of Mr. Campbell and the use of such a list.
    In addition to the initiatives described by Deputy Assistant 
Secretary John, we are using the Human Rights and Democracy Fund (HRDF) 
to support efforts to monitor and promote human rights and democracy, 
including in the Philippines. DRL administers open grant competitions 
for HRDF funds in which we solicit proposals from U.S.-based NGOs to 
implement innovative democracy and human rights projects worldwide.
    In the Philippines our programs will help to build capacity within 
the Philippine Commission on Human Rights and local human rights NGOs 
in the promotion of human rights, civic education, and responsible 
independent media. Right now, we are using HRDF to advance human rights 
protection in the Philippines through the institutionalization and 
expansion of the Martus software project. This project is designed to 
help the Philippine Commission on Human Rights enhance the quality of 
human rights information it generates by supporting the integration of 
the Martus software within its organizational systems. In addition, it 
will expand and enhance usage and the network of Martus users, 
particularly in Muslim Mindanao where human rights violations are a 
serious concern. We expect the project to be sustainable over the long 
term through local ownership of the product and results. This project 
serves as a model to provide IT assistance to human rights 
organizations in countries in which freedom of information is 
suppressed and human rights are abused.
    Another HRDF grant is improving the Madrasah system by educating 
leaders of schools in the southern Philippines. This assistance 
supports secular functions for Muslim schools--some of which are in 
remote areas where there are no public schools available. It also works 
to create awareness among Madrasah school leaders regarding U.S. 
educational systems and curricula.
    We have another HRDF grant awaiting congressional approval that 
will help Filipino media reduce sensationalist reporting, highlight the 
human cost of on-going political, economic, and violent conflict and 
encourage reconciliation and reasoned debate. This project will 
contribute to democracy and human rights by working to make the media a 
more constructive and responsible force for social and political 
cohesion, and will create a national association of human rights 
journalists.
    I can assure you that we will look for opportunities to include the 
Philippines in some of our upcoming HRDF Requests for Grant Proposals.
    The Melo Commission Report concluded its findings by stating that 
you cannot build democracy or combat terrorism through abuse of human 
rights. The State Department will continue to help the Philippines--a 
free and democratic republic with an elected President, an elected 
bicameral legislature, and a multiparty system--to address the serious 
problem of extrajudicial killings. We look forward to working with 
Congress on these issues, both in the Philippines and elsewhere.
    I would ask that the Philippine section of the Country Reports on 
Human Rights Practices for 2006 be entered into the record of this 
hearing, and would be pleased to take your questions.

[Editor's note.-- The ``Country Reports on Human Rights Practices for 
2006'' can be accessed on the State Department Web site.]

    Senator Boxer. Thank you very much. I've asked Senator 
Murkowski to please begin the questioning because she has such 
a tight schedule.
    So, Senator, go right ahead.
    Senator Murkowski. Thank you, I appreciate the 
accommodation.
    And thank you gentlemen for your responses, or your 
testimony, here this afternoon.
    Both of you have mentioned President Arroyo. How is he 
viewed in, as it relates to the extrajudicial killings? Is it 
viewed that he is doing all that----
    Senator Boxer. She's a she.
    Senator Murkowski [continuing]. Excuse me, is it, yes. 
She's a she. I'm so used to the President's being a he. 
[Laughter.]
    Senator Boxer. I know, exactly.
    Senator Murkowski. The Philippines are ahead of us here. 
But in terms of how she is viewed in this effort, is it enough?
    Mr. John, do you want to go first?
    Mr. John. Well, in the sense that you still have 
extrajudicial killings, I don't think you can call it enough.
    Senator Murkowski. Well, you've mentioned the task force--
--
    Mr. John. Right. I think that----
    Senator Murkowski [continuing]. They have in--brought 
together.
    Mr. John. I think she has marched out in the right way over 
the last several months with the--if you look at the last 6 
months or so, the last 3 months or so, you do have, first of 
all, clear direction and statements against extrajudicial 
killings from the top, from the President, and a commitment to 
halt them and setting up the, as we noted, the structures that 
you need to halt that. You know, in that sense, I think it's 
off, she's off to a good start. I, until, you know, these 
numbers come drastically down, though, I don't think we can 
determine if it's enough.
    Senator Murkowski. People don't just want a task force, 
they want to see action.
    Mr. John. Right.
    Senator Murkowski. They want to see a change.
    Mr. John. Follow through is going to be very critical here.
    Senator Murkowski. So in terms of, where the blame is being 
laid and assessed, you've mentioned--you, Mr. John--mentioned 
security forces. Is it more directed toward the military and 
the police, and less against the administration then? I'm just 
trying to understand where, from the public perspective, the 
focus needs to be in terms of where changes are needed.
    Mr. John. Right. Well, I think in the sense that you have 
security forces involved in these extrajudicial killings, the 
chain of command is very important. And the chain of command 
for the security forces leads to the President of the Republic 
of the Philippines. That doesn't mean that they're operating 
under orders, but as the ultimate authority in the chain of 
command, she has to take the steps to stop any involvement by 
members of security forces.
    Senator Murkowski. Where are we seeing the most number of 
killings. You mentioned 10 areas--there were 10 areas that you 
were focusing on. Is this a situation where if we are 
successful in stopping the killings in one area, that they will 
just migrate to another section of the country?
    Mr. John. I'm not sure precisely, to be honest, where 
those--where the 10 areas are located on the map. I do know 
that it's--it's not necessarily coincident with Mindanao, for 
example.
    Senator Murkowski. Right.
    Mr. John. That's a separate issue. These are largely 
related to NPA, the New People's Army, Communist Party of the 
Philippines, NPACPP, and leftist parties associated with those, 
with the NPACPP. Those are, I believe, spread throughout the 
country. And I'm not sure that you get into the situation where 
you squeeze one area and it moves to another area. But, you 
know, we can investigate and get back to you on that.
    Senator Murkowski. And then a question to you, Mr. Farrar. 
You've mentioned the assistance, and the grants that you will 
be utilizing, and an effort with the education, as well as 
reporting of human rights abuses. Are--as far as the U.S. 
foreign assistance through the international military education 
training, the foreign military funds, these types of funds. 
How--how successful have we been in using these funds in the 
area of training, and to work on the reporting?
    Mr. Farrar. Sure. The specific project I mentioned has to 
do with us training Filipino journalists in the area of human 
rights abuses and reporting. And also to set up a National 
Association of Human Rights Journalists to both 
professionalize, and allow them to better communicate among one 
another.
    The IMET program is an important part, separate part from 
our bureau, and human rights education is an important part of 
that program.
    Do you have something to add?
    Mr. John. I think the IMET training is, I think, a 
component, or strongly related to the Philippine Defense 
Reform, the PDR, which, a large component of which is human 
rights training, both in the Philippines and in the United 
States.
    Senator Murkowski. Madame Chairman, thank you for your 
indulgence in letting me go first. I appreciate, again, and 
I'll look forward to a followup with you as to the rest of the 
testimony today.
    Thank you.
    Senator Boxer. Absolutely. Thank you so much, Senator.
    These are questions for both of you, and either one of you 
can handle them or each can comment as you wish.
    The State Department's 2006 country report on human rights 
practices in the Philippines paints a grim picture of the 
situation there. The report states--this is our State 
Department--that many of last year's extrajudicial killings, 
``went unsolved and unpunished, contributing to a climate of 
impunity.'' The report also states that, ``members of the 
security services committed acts of physical and psychological 
abuse on suspects and detainees, and there were instances of 
torture.''
    Now in response to the continued violence, I understand the 
State Department, through U.S. Ambassador Kristie Kenney, 
recently offered assistance in stopping the violence. Yet there 
have been conflicting reports as to whether or not the 
Philippine Government accepted the offer. Now, I guess, Mr. 
John, I'm going to address this to you, because you basically 
painted a fairly rosy picture about this. So I guess I need to 
know--have the Philippines accepted our offers, and how have 
they responded? And have they accepted our offers in whole or 
in part?
    Mr. John. Yes; the Secretary of Foreign Affairs, Secretary 
Romulo, has accepted offers of U.S. assistance in this. I think 
if--I hope that I wasn't painting a rosy picture about the 
situation in the Philippines, but rather our offers of 
assistance. I think that the Melo----
    Senator Boxer. Well, you made a rosy scenario about, the 
fact that--it sounded to me like you were telling me that the 
Government has embraced everything we have offered. Is that 
true? Have they embraced everything? Have the rejected 
anything? Have they said, ``Wonderful, we'll take all the help, 
and we're going to have transparency and accountability.''
    Mr. John. They have accepted what we've offered. That's 
correct.
    Senator Boxer. OK.
    Mr. John. And what we've put forward, we're going to move 
forward with. Yes.
    Senator Boxer. All right. According to the CRS--that's the 
Congressional Research Service--the Philippines, a major non-
NATO ally of the United States, has received the most dramatic 
increase in United States foreign assistance in the East Asia 
Pacific region, particularly for foreign military financing.
    Now you pointed out, as I did, that the Philippines are a 
very important ally to us, a very important partner to us in 
the war against terror. That's for sure.
    But, I guess what I want to know from you is: Is there a 
better way to address the issue of extrajudicial killings in 
relation to this military financing? Because people are coming 
to me and saying, you know, ``We're spending American dollars 
to train the military forces and yet, we're not sure who's 
doing these extrajudicial killings.'' Are we going to be 
attacked, as we were many years ago, in El Salvador and other 
places, for training a military that then turns out to be 
perpetrating crimes against its own people? So have you thought 
about suggesting that we tie some strings to this military 
training money?
    Mr. John. I think we, you know, certainly have something 
that one would have to consider, but our approach is that tying 
legislation to the assistance money would be counterproductive.
    I think, first, on the dramatic increase in----
    Senator Boxer. Well, before you slide through that one. 
[Laughter.]
    I don't accept that, without a challenge. Because if we are 
training the military there with our hard-earned tax dollars, 
I've got a million Filipino-Americans in my State, many of whom 
are concerned about this. They want this to be fixed.
    So, why wouldn't we since we are concerned that maybe the 
military is involved in this--and that has not been discounted 
yet or proven, I think it's pretty much up in the air--but 
there's suspicion of this. Why wouldn't we want to say to the 
government, you know, we need to put some strings on this? 
Either you step up to the plate and resolve this, or these 
funds just aren't going to come. Because aren't we concerned 
that our money, in the name of America, could be used to kill 
innocent people?
    Mr. John. Yeah; absolutely.
    Senator Boxer. OK. Well, I hope you'll, you know, take that 
back to the boss.
    Mr. John. Yes; we agree. And I, if I could just, I'll leave 
it at that, yes. I agree that we do not want to train the Armed 
Forces of the Philippines that, in any way, would lead to their 
involvement in extrajudicial killings.
    Senator Boxer. Well, I'm really glad to hear that because 
the Alston concluded, ``The increase in political killings in 
recent years is attributable, at least in part, to the AFP.'' 
That's the Armed Forces of the Philippines, counterinsurgency 
strategy. So, I guess I was wrong when I said, we don't know. I 
mean, if we believe the Alston Report, they said that.
    So I think it's really important that we not have blood on 
our hands in this country. And that, in fact, we are very 
cautious, and that we--since the government has admitted 
there's a problem and you feel good about their response so 
far--the transparency and the results, we really need to have 
that.
    OK, let's see. Mr. John, in your opening statement you 
called the Philippines a ``vibrant democracy.'' And when I went 
there in 1986, the excitement that lay ahead was just amazing. 
I mean, I just remember being on the street there standing in 
front of the Marcos Palace, he was gone, and Cory Aquino had 
taken over. And just remembering the religious groups that 
helped in that whole thing to bring about, you know, democracy 
there. So it's important that we have a vibrant democracy now. 
Do you know the group, the Political and Economic Risk 
Consultancy? Are you familiar with them?
    Mr. John. No, Senator.
    Senator Boxer. Are you?
    Mr. Farrar. No.
    Senator Boxer. This is a group that ranks corruption in 
various nations. So, I'll send you their report. They rank the 
Philippines as the most corrupt nation in Asia. And so, do you 
think it's possible to be a vibrant democracy when corruption 
is so rampant?
    Mr. John. I would draw a line between a vibrant democracy 
and good clean government. And I think that the goal is, that 
you have a vibrant democracy that leads to good clean 
government.
    Senator Boxer. When you say you draw a line, what do you 
mean? You don't see them as being connected?
    Mr. John. They are, I'm sorry, there is, that you don't 
have--with a vibrant democracy, you don't immediately----
    Senator Boxer. You can have corruption.
    Mr. John [continuing]. Have good clean government.
    Senator Boxer. Well, what's your position on the corruption 
in the Philippines?
    Mr. John. Corruption is bad, and our Millennium--I think 
the Philippines would be the first to acknowledge that they 
have a problem with corruption. We've got Millennium Challenge 
account money directed to fighting corruption in the 
Philippines.
    Senator Boxer. OK. Because, I wonder if corruption's a 
factor in the failure of the Philippine justice system to bring 
extrajudicial killers to justice, do you think it could be a 
factor?
    Mr. John. Yes. I think a corrupt judiciary, opaque 
judiciary could hinder bringing EJKs, and bringing the 
perpetrators of extrajudicial killings to justice. But, if I 
could just make another point about----
    Senator Boxer. Please, go ahead; yeah.
    Mr. John [continuing]. Democracy, with your permission.
    Senator Boxer. Sure.
    Mr. John. I think, you know, one thing that is, about the 
vibrant democracy in the Philippines that has helped, that will 
help resolve extrajudicial killings is that, for example, with 
these, the Spader Reports that started off with Amnesty 
International last August. There's been significant media 
attention in the Philippines to the problem of extrajudicial 
killings. And I think that it's going to be, what's going to 
help resolve this is domestic political pressure. The 
Philippines, and Filipinos themselves bringing domestic 
political pressure on President Arroyo.
    We'll support that, but I think in that sense you do see a 
connection between a vibrant democracy, and steps taken to 
resolve a very important issue to the Philippine citizens by 
the President.
    Senator Boxer. Well, I think we have some really great 
opportunities here to link our aid to their facing this 
problem. We've identified the military assistance. We also, you 
mentioned it, have the Millennium Challenge grants, and it 
seems to me that's another way to leverage transparency and 
progress on these killings and on corruption in general.
    I would ask, maybe Mr. Farrar or Mr. John: Does the State 
Department have an estimate of the number of extrajudicial 
killings in the Philippines?
    Mr. Farrar. We don't have our own number. If you look at 
the human rights report, it sights a variety of sources which 
range significantly. But we would agree with----
    Senator Boxer. A variety of sources, or a variety of 
numbers?
    Mr. Farrar. Sources which all have different numbers. And 
we would agree with Mr. Alston when he says that there are a 
variety of numbers, but what's important is that there's 
agreement that the trend, that the number is on the rise.
    Senator Boxer. OK, then since you mentioned Mr. Alston, I 
have my last question. I'm sure you're very happy that it's my 
last question.
    Mr. Alston, the Special Rapporteur of the U.N. Human Rights 
Council, said that, ``The response of the Philippine Government 
to the crisis of extrajudicial executions varies 
dramatically.'' He said there's been a welcome acknowledgement 
of the seriousness of the problem at the very top--which is 
consistent with what you said, Mr. John--``at the executive 
level the messages have been very mixed and often 
unsatisfactory.'' This is Mr. Alston. ``And at the operational 
level, the allegations have too often been met with the 
response of incredulity mixed with offense.'' How can we ensure 
that extrajudicial killings are condemned by all levels of the 
Philippine Government? I would ask either of you to comment?
    Mr. Farrar. Sure, as Eric mentioned before, the commitment 
from President Arroyo is a good start and it's a good public 
commitment, and certain actions have flowed from that already, 
including the directive by the Armed Forces to reinforce the 
chain of command. But what's important is, I mentioned in my 
opening statement, is implementation and follow-through. And I 
can tell you from experience in other countries and other 
regions of the world that that's the toughest stage--is 
implementation. And so it's something they have to work on, and 
we have to help them on, and keep the focus. And hearings, such 
as today's, are a good way to get attention on the problem.
    Senator Boxer. Yeah; I mean, I really think, because we 
have such a close relationship, as we must, and as we should, I 
think we have a lot more leverage than perhaps we've been 
using. And that is one of the points to this hearing.
    You know, sometimes I think we tend to say we don't want to 
criticize our friends, but frankly what I learned growing up 
is--if you really care about someone, you ought to tell them, 
if you think they're going off course somewhere. If you don't 
care about them, just let them go down the wrong road. And so, 
I hope you'll take that message back.
    I know, I really thank you for your service to your country 
for taking your job so seriously.
    We're going to call up the next panel. And I hope you can 
stay to hear that panel. We'll be finished at around 4 o'clock. 
So if you could stay it would be very, very good, at least one 
of you. Because I think what you're going to hear is going to 
be very important. If you can do that.
    So, we'll call up the second panel now. Senator Webb has 
told me he doesn't have an opening statement, but he's 
interested in hearing the next panel.
    So, Mr. Kumar, advocacy director, we're going to try to get 
you moving, move, move, faster, good. Mr. T. Kumar, advocacy 
director for Asia and the Pacific, Amnesty International USA in 
Washington here. Mr. Eugene Martin, executive director, 
Philippine Facilitation Project, U.S. Institute of Peace, 
Washington. Bishop Eliezer Pascua, general secretary of the 
United Church of Christ in the Philippines. And you've come to 
us from the Philippines, and we're very grateful. And Ms. Marie 
Hilao-Enriquez, general secretary of KARAPATAN, also coming to 
us from the Philippines. We are very grateful that you have 
come all this way.
    So why don't we start--yes; I will turn it over to Senator 
Webb, who has something he'd like to add.
    Senator Webb. Thank you, Madame Chair.
    I don't really have a formal opening statement, but I would 
first like to congratulate you on holding these hearings, and 
also to say that it's an enormous pleasure to be serving on 
this subcommittee. I've spent a great deal of my life in and 
out of Asia, East Asia, and I have a very strong affection for 
the people of the Philippines, and for the special bond that 
our country has with the people of the Philippines. And I've 
been able to travel a good deal in the Philippines over the 
years.
    I made a very useful visit there when I was Secretary of 
the Navy a number of years ago. I've been there as a 
journalist. I've been there as a tourist. I have a number of 
friends in the Philippines, and in the government. And I think 
this particular issue is one that we should be looking at, in 
the way that you're looking at it. And I'm pleased to be here.
    I just didn't want to sit up here without having said 
anything and I'm very interested in hearing the testimony of 
this panel.
    Senator Boxer. Senator, thank you very much. And I am proud 
to have you on this subcommittee. It's enriching the 
subcommittee, tremendously.
    Let's start with Mr. T. Kumar, advocacy director for Asia 
and the Pacific, from Amnesty International. Again, we'll give 
you 5 minutes so we have enough time for questions. Go ahead 
Mr. Kumar.

   STATEMENT OF T. KUMAR, ADVOCACY DIRECTOR FOR ASIA AND THE 
      PACIFIC, AMNESTY INTERNATIONAL, USA, WASHINGTON, DC

    Mr. Kumar. Thank you very much, Madame Chair and Senator 
Webb. Amnesty International is extremely pleased to be here to 
testify on the situation of extreme significance to us.
    You touched on a couple of issues during the first panel 
discussion, so I don't want to go over that. I would like to 
touch on basic issues. First is, Amnesty International has 
documented that hundreds have been killed, politically 
assassinated, by suspected vigilante groups who may have been 
linked to the Armed Forces of the Philippines.
    Who are the targets? The targets are pretty much political 
leaders and social activists who have been directly connected, 
or indirectly connected, to the Communist Party of the 
Philippines. So, what we are seeing today is even the political 
leaders, Members of Congress and others, are being targeted, 
because they may be sharing the same political views or social 
views of the Communist Party--namely environmental issues, 
fighting for the indigenous rights, fighting for human rights, 
and fighting for other marginalized communities like poor and 
the landless.
    So, what we are seeing today is when a group of people in a 
country, they are fighting for the weakest and the 
marginalized, they get killed in the name of fighting terror. 
That is what is happening there. And the unfortunate thing that 
we are seeing in the Philippines is that the garment of 
Philippines--the Armed Forces of the Philippines, and the 
police, find it difficult to distinguish between the political 
activists, as well as the Communist Party of the Philippines.
    My time is running out. I want to quickly go into one 
issue. Amnesty International strongly believes that these 
killings are not unconnected. That is, there is a connect, 
there is a pattern that is being done behind these killings, 
and we strongly believe that it is linked to certain elements 
in the Armed Forces.
    We are really worried about the Philippine Government's 
actions. President Arroyo waited for 4 years to nominate this 
Melo Commission. She suddenly woke up after everyone started 
shouting. So, 4 years she was completely silent. One disturbing 
element is, that is one Major General Palparan, whom we have 
identified as one of the main players, was involved in all of 
these assassinations, directly or indirectly. When he retired, 
President Arroyo basically congratulated him and said he is an 
asset to counterinsurgency operations. That's an extremely 
negative and damaging statement that President Arroyo made. So, 
as the committee, please take this into account.
    My final point is the Philippine Government is using war 
and terror as an excuse to eliminate political opponents. That 
is what we are seeing here. There are two armed opposition 
groups in the Philippines now, two major. One is the Communist 
Party of the Philippines. The second is the Moro Islamic 
National Front.
    The United States Government has designated only the 
Communist Party of the Philippines as a terrorist organization, 
and they did not designate the Moro Islamic Liberation Front. 
We want to know why you have these two standards? That's the 
message that you should ask the government, why you have two 
standards? I know Eugene will have an answer, but I want you to 
ask the administration. There are two armed groups, and only 
one is being designated.
    Finally, the United States is giving training to the Armed 
Forces of the Philippines on counterterrorism on these two 
fronts. One is to fight the Moro Islamic Militants, and the 
last to fight the Communists.
    We want to know what type of training you are giving to 
these troops that are fighting Communist groups? The reason why 
we're asking is, these Communists, in the name of fighting 
communism, are the one all these killings are taking place.
    Before finishing my time I want to highlight one issue that 
is directly connected to the Iraq war. We heard--it's not 
confirmed yet--that this Major General Palparan is the one who 
led the Philippine contingent to fight the war in Iraq. The 
Philippines sent a couple of hundred, I don't know how many, up 
to a thousand troops there. Now they have been withdrawn. If 
that is true, it is disturbing.
    Here, this person has been implicated by everyone, and here 
he was implicated in political killings, and the United States 
is allowing these type of leaders--military leaders--to come 
and fight the Iraq war, and what message you are giving to the 
Iraqis? And what type of actions these troops are taking 
against the Iraqis there?
    That is the question you have to ask in an overall context.
    Thank you very much, and I know I have only 30 seconds. I 
would be waiting for questions to answer. Thank you very much, 
Madame, for inviting us.
    [The prepared statement of Mr. Kumar follows:]

  Prepared Statement of T. Kumar, Advocacy Director for Asia and the 
          Pacific, Amnesty International, USA, Washington, DC

    Thank you Madam Chair and distinguished members of this committee. 
Amnesty is pleased to testify at this important hearing.
    For several years political killings in the Philippines have been 
of serious concern to Amnesty International which has issued reports, 
urgent actions and news releases to highlight the gravity of the 
situation. We also met with Her Excellency Gloria Macapagal-Arroyo, 
President of the Republic of the Philippines, on September 14, 2006, to 
raise these concerns.
    It is disturbing to note that, even though hundreds have been 
killed so far, to date there has not been a single conviction. The 
political killings are continuing in the Philippines, and even 
yesterday a witness to the U.N. envoy was gunned down. Amnesty 
International is concerned that the Government's declaration of ``all-
out war'' on communism paves the way for further increases in killings.

                                SUMMARY

    The number of attacks on leftist activists and community workers 
rose sharply during the last couple of years. Most of the attacks were 
carried out by unidentified assailants on motorcycles, at times wearing 
face masks, who were often described as ``vigilantes'' or hired killers 
allegedly linked to Armed Forces of the Philippines (AFP). In some 
cases, those attacked had reportedly been under surveillance by people 
linked to the security forces or had received death threats.
    Those most at risk include members of legal leftist political 
parties, including Bayan Muna (People First) and Anakpawis (Toiling 
Masses), other human rights and community activists, priests, church 
workers, and lawyers regarded by the authorities as sympathetic to the 
broader Communist movement.
    Increased killings in particular provinces during President 
Arroyo's administration were reportedly linked to the public labeling 
of leftist groups as National People's Army's ``front organizations'' 
by the local AFP Commanders.
    A climate of impunity shielding the perpetrators of such killings 
deepened as ineffective investigations failed to lead to the 
prosecution of those responsible. In many cases witnesses were 
reportedly too frightened to testify.
    Most of the victims were not even members of armed groups, even 
though they may have sympathised with their ideology. It is a matter of 
importance for everyone in the Philippines that individuals should be 
able to affiliate with the political party or group of their choice and 
not be subject to politically motivated violence as a result.
Who is responsible?
    The methodology of the attacks, including prior death threats, 
patterns of surveillance by persons reportedly linked to the security 
forces, the leftist profile of the victims, and a climate of impunity 
that has shielded the perpetrators from prosecution, has led Amnesty 
International to conclude that the attacks are not an unconnected 
series of criminal murders but constitute a politically motivated 
pattern of killings. The organization remains gravely concerned that 
members of the security forces may have been directly involved in the 
killings, or else have tolerated, acquiesced to, or been complicit in 
them.
    Philip Alston, the U.N. expert on extrajudicial executions, stated 
in his initial findings that: ``The Armed Forces of the Philippines 
remains in a state of almost total denial of its need to respond 
effectively and authentically to the significant number of killings 
which have been convincingly attributed to them.''
Maj. Gen. Jovito Palparan
    One of the well-known military officers whose name is often cited 
in the context of political killings is Major General Palparn. He has 
made public statements linking leftist political parties with National 
People's Army. In a television interview in August 2002, then-Colonel 
Palparan labeled Bayan Muna an ``NPA front.'' He also publicly accused 
Karapatan and the women's organization, Gabriela, of being NPA 
recruiters.
    Major General Palparan in particular emerged as the focus of 
accusations by leftist groups that the military was responsible for 
sharply increased numbers of killings of leftist activists in regions 
where he was given command.
    He also described the congressional party-list members as directing 
of ``providing the day-to-day policies of the (rebel) movement.''
    He warned of necessary and tolerable ``collateral damage'' in the 
anti-insurgency campaign, and, referring to vigilante killings by anti-
Communist elements outside the AFP, stated that the military alone 
should not be blamed. Subsequently, labeling leftist party-list leader 
as ``enemies of the state,'' he also called for reinstitution of the 
Anti-Subversion Act to make membership of the CPP a criminal offense 
once again.
            An asset?
    Major General Palparn retired on 11 September 2005. Following his 
retirement he was lauded by the President who called him an asset to 
the counterinsurgency. This is despite all the accusations against him. 
He was going to be appointed as the Deputy National Security Advisor, 
but the appointment did not go through due to public protest. He has 
recently been encouraged to run for Congress.
    He was significantly mentioned in the Melo report whose authors 
interviewed him in regards to comments he has made about political 
killings. He has also been implicated behind some of the killings.
    Amnesty International is concerned that there may be several more 
senior officers like Major General Palparn in the Armed Forces of the 
Philippines. We urge the U.S. administration of be vigilant in 
identifying these officers to satisfy Leahey Law requirements.
Philippines Government's response
    After almost 4 years of rising numbers of political killings--and 
after intense pressure from the international human rights 
organizations and the United Nations--the Government of the Philippines 
took some steps to ``understand'' the problem, by appointing ``Melo 
Commission.'' It is a mystery why the Government of the Philippines 
failed to address this disturbing trend of political killings for all 
these years; despite the fact that hundreds were killed for political 
reasons.
    On August 21, 2006, President Gloria Macapagal-Arroyo announced the 
establishment of a special Commission of Inquiry, headed by former 
Supreme Court Justice Jose Melo, to investigate the killings and to 
make recommendations for remedial action, including appropriate 
prosecutions and legislative proposals.
    Pledging to ``break this cycle of violence once and for all,'' 
President Arroyo stated, ``I have directed [the Melo Commission] to 
leave no stone unturned in their pursuit of justice . . . the victims 
and their families deserve justice to be served.''
    After initial hesitation to release the report; the Government of 
the Philippines released the ``Melo Report'' on February 22, 2007. 
Responding to the Melo Commission report, the Government has announced 
a six-point action plan, the implementation of which will be crucial to 
ending the killings. A lack of accountability for such political 
killings remains a critical challenge: To date there has not been one 
conviction, despite the hundreds of killings, primarily of legal 
leftist activists, over the past 6 years.
    In May, the authorities set up a special police investigative task 
force called Usig to coordinate investigations into suspected political 
killings. However, only a limited number of people were arrested and 
few cases were filed in court by the end of 2006. For example, of 114 
killings recorded since 2001 by Task Force Usig, the police have 
arrested suspects in only three cases. No one was held accountable for 
cases before 2001.
United States policy
    The United States has a special relationship with the Philippines, 
including U.S. forces stationed in the Philippines to train the Armed 
Forces of the Philippines (AFP). The United States also offers millions 
of dollars of aid and other military assistance and has designated the 
Philippines as a major non-NATO ally.
    Given this close relationship the United States enjoys with the 
Philippines it is disappointing to note that the administration's 
actions have been muted and that the administration has failed the 
Philippine people by not publicly condemning the Philippine Government 
publicly over the last 4 years while the political killings increased. 
Not being vocal on this issue sends a wrong message to the Government 
of the Philippines. We urge the administration to publicly condemn the 
political killings and urge the creation of specific benchmarks for the 
Philippines Government to end these killings. We urge the 
administration to keep this issue as a matter of priority in all of its 
interactions with the Government of the Philippines.
    In September 2006, it was reported in the media that military 
assistance, in the form of training, would be increased to help with 
the Philippines' war on terror and to combat the Communist insurgency. 
Since the political killings in the Philippines are happening in the 
context of Communist insurgency, it is vital that the United States 
Government report to the appropriate congressional committees the type 
of military assistance it is giving to the Government of the 
Philippines in its fight against the community insurgency.
What should be done?
    Amnesty International believes that urgent steps are needed to 
remedy this situation, not least because the threat of further killings 
has intensified due to political developments during 2006. These 
include President Gloria Macapagal-Arroyo's declaration of a week-long 
State of Emergency in late February and the continuing collapse of the 
peace process. Prospect for revival of peace negotiations dwindled 
further amid intensification of counterinsurgency operations, the 
direct transfer of names and addresses of NDF negotiators and others 
listed in a former safe-conduct agreement to an arrest warrant, and an 
announcement in June of the release of substantial additional funds to 
allow the armed forces to ``crush'' the Communist insurgency in certain 
areas within 2 years.
    During and after the Emergency, justified as a response to an 
alleged coup conspiracy involving an array of actors from the extreme 
left to the extreme right of the political spectrum, senior officials 
repeatedly claimed that the major threat to national security came from 
the CPP-NPA. They publicly linked the legal leftist political 
opposition directly with Communist armed groups, in effect implying 
that there was no distinction between them. Such public labeling, in 
conjunction with the arrest and attempted arrest of leftist 
congressional representatives on charges of ``rebellion,'' raised 
concerns that the risk of further killings of leftist activists was 
intensifying.
    Such concerns proved well-founded. As senior officials and military 
officers labeled members of the legal left ``enemies of the state,'' 
and failed to condemn the killings consistently at all levels of 
government, fears grew that elements within the armed forces might 
interpret this as a tacit signal that political killings were a 
legitimate part of the anti-insurgency campaign. At least 51 political 
killings took place in the first half of 2006, compared to the 66 
killings recorded by Amnesty International in the whole of 2005.
    While welcoming President Arroyo's condemnation of political 
killings in her State of the Nation Address to Congress in July 2006, 
her earlier reported instructions to Cabinet officials to put an end to 
further killings, and the establishment of a special police 
investigative task force, Amnesty International believes further 
determined steps are essential. The organization calls on the 
Government of the Philippines to implement Amnesty International's 14-
Point Program for the Prevention of Extrajudicial Executions.
    As an integral part of this program, the authorities should 
urgently reiterate a clear, unequivocal message to all members of the 
police, military, and other security forces that involvement in, or 
acquiescence to, such unlawful killings will never be tolerated. All 
such cases must be fully and promptly investigated and all those 
responsible, whether linked to the armed forces or not, brought to 
justice. Only in this manner can public confidence in the impartial and 
effective administration of justice be restored and a peace process, 
with respect for human rights by all sides at its heart, be revived.
Political killings: An intensifying pattern
    Between the late 1980s and 2000-2001, as the scale and intensity of 
the National People's Army's (NPA) insurgency declined gradually, the 
number of alleged NPA rebels killed in direct armed clashes or 
``encounters'' similarly decreased. However over the last 6 years this 
trend appeared to alter. In, addition, especially since 2003, the 
number of fatal attacks by unidentified armed men on members of legal 
leftist political organizations accused by the government of being 
``front'' organizations of the CPP-NPA, including Bayan Muna, 
Anakpawis, Bagong Alyansang Makabayan (BAYAN--New Patriotic Alliance) 
and others, has undergone a marked increase.
    Amnesty International believes that these successive killings are 
marked by common features. These include the political affiliations of 
the victims; the methodology of attacks; an apparent climate of 
impunity which, in practice, has shielded those responsible from 
prosecution; and repeated reports that military or other state agents 
have been directly involved in the attacks, or else have acquiesced or 
been complicit in them.
    The organization believes that the pattern of killings, sustained 
over at least the past 5 years, amount to far more than the rise and 
fall of a normal crime rate cycle as suggested by some police officers.
Communist ``fronts'': The resurgence of ``red-labeling''
    Human rights violations against suspected ``sympathizers'' of the 
CPP-NPA have long been a feature of anti-insurgency operations in the 
Philippines. From the 1970s to the early 1990s the practice of ``red-
labeling,'' the public labeling of leftist critics of the government as 
``subversives'' or members of Communist ``front organizations,'' was 
seen by Amnesty International, Task Force Detainees of the Philippines 
and other human rights groups as directly linked to the high levels of 
extrajudicial executions, ``disappearances,'' arbitrary arrests, and 
torture of members of legal political groups and nongovernmental 
organizations. Peasants, trade unionists, church, social and human 
rights activists were portrayed in this manner as ``legitimate'' 
targets within the broader counterinsurgency campaign. Many were also 
placed, without opportunity for rebuttal, on AFP ``Orders of Battle'' 
(lists of people wanted by the security forces for alleged subversion) 
and, often receiving death threats from AFP and police personnel, 
paramilitaries, or unofficial vigilante groups, were at particular risk 
of serious human rights violations.
    Concern over a resurgence of such labeling--and an apparent link to 
a parallel rise in the number of political killings--has increased 
during President Arroyo's administration as provincial military 
commanders made public statements linking legal leftist parties 
directly with the CPP-NPA. One of the most prominent among these 
commanders remains Maj. Gen. Jovito Palparan. In a television interview 
in August 2002 then-Colonel Palparan labeled Bayan Muna an ``NPA 
front.'' He also publicly accused Karapatan and the women's 
organization, Gabriela, of being ``NPA recruiters.''
    Similarly in September 2002, an army commander in Cebu denied 
Karapatan human rights workers permission to visit a man detained on 
suspicion of being an NPA rebel. The commander is reported to have 
said, ``There is the possibility that we will shoot them (Karapatan 
members), depending on their action, because they are our enemies.'' In 
a separate radio interview, he is also reported to have described 
Karapatan as ``an enemy which hasn't done anything but support the NPA 
and find ways of destroying the government.''
    The perception that a group of officers within the AFP recognized 
no distinction between the NPA and legal leftist parties, and rejected 
the legitimacy of leftist progressive groups' participation in 
democratic political processes, was also reflected in the circulation 
in 2005 of AFP treatises on the CPP-NPA ``revolutionary struggle'' and 
what the AFP regarded as necessary resultant counterinsurgency 
strategies. The treatises outlined the ``complementary, interrelated, 
and interactive'' nature of the armed, the legal community and 
parliamentary struggles, and described the targeted infiltration and 
the CPP-NPA ``capture'' of particular sectoral communities (including 
peasants, urban poor, and indigenous people) to exploit pressing social 
issues such as land reform and the impact of mining and other 
controversial development projects. Referring also to alleged 
penetration of local government units by party-list groups and the 
manipulation of government local development programs, the treatises 
listed alleged ``front'' nongovernment organizations (NGOs) and called 
for a coordinated AFP campaign to ``neutralize'' CPP-NPA programs 
within vulnerable sectors and communities.
    Major General Palparan in particular emerged as the focus of 
accusations by leftist groups that the military was responsible for 
sharply increased numbers of killings of leftist activists in regions 
where he was given command, including Samar and, currently, Central 
Luzon. In February 2006, Major General Palparan publicly reiterated 
that the government must confront the insurgency at all levels, 
reducing their support systems, including NGO's infiltrated or 
controlled by the CPP that provide the ``materials, the shelter'' for 
the NPA. He also described the congressional party-list members as 
directing or ``providing the day-to-day policies of the [rebel] 
movement.'' He warned of necessary and tolerable ``collateral damage'' 
in the anti-insurgency campaign, and, referring to vigilante killings 
by anti-Communist elements outside the AFP, stated that the military 
``alone'' should not be blamed. Subsequently, labeling leftist party-
list leaders as ``enemies of the state,'' he also called for 
reinstitution of the Anti-Subversion Act to again make membership of 
the CPP a criminal offense.
    Though reassured by President Arroyo's public condemnation of 
political killings in July 2006, the absence of consistent 
denunciation, at all levels of government, of any form of official 
involvement in political killings contributed to persistent concerns 
that such counterinsurgency strategies would consolidate, in practice, 
into an implicit policy of toleration of such political killings. Such 
concerns had deepened as senior government officials, including 
prominent members of the Cabinet Oversight Committee on Internal 
Security (COC-IS), publicly endorsed such counterinsurgency strategies, 
and in addition, robustly defended the arrest or threatened arrest of 
party-list congressional representatives for rebellion. In March 2006 
National Security Adviser Noberto Gonzales declared that the government 
was beginning a crackdown on all known ``Communist fronts'' in society, 
and would achieve its goal of destroying the CPP-NPA by the year 2010.
The backqround of the victims and location of attacks
    The majority of the victims of political killings have been unarmed 
civilians, members of the legal political left, primarily Bayan Muna, 
Anakpawis and Bagong Alyansang Makabayan (BAYAN--New Patriotic 
Alliance), but including activists from a range of leftist sectoral or 
community organizations. Those killed have also included members of 
leftist groups who have split from the CPP, including the Kilusan para 
sa Pambansang Demokraysa (KPD--Movement for National Democracy). Both 
men and women have been targeted, with the victims including community 
organizers, church workers and priests, human rights activists, trade 
union and peasant leaders, journalists, indigenous peoples activists, 
elected local officials and political activists.
    Attacks have occurred nationwide, though human rights and other 
organizations have noted periodic, marked increases in particular 
regions, notably Mindoro Oriental, Eastern Visayas and Central Luzon 
(including Bulacan, Pampanga, Bataan, and Nueva Ecija provinces). 
According to local human rights groups, these regional fluctuations 
were allegedly linked to the assignment of Major General Palparan as 
commanding officer in these regions. Major General Palparan has denied 
any involvement in such killings.
Methodology of attacks and suspected perpetrators
    The predominant method of attack has been shootings by unidentified 
assailants, mostly riding tandem on a motorcycle, who often obscure 
their identity with ``bonnet'' face masks or helmets. At times the 
assailants are supported by other men on motorcycles nearby or use 
unmarked vans. Many attacks were described as having been carried out 
in a ``professional'' manner, with the killers striking in broad 
daylight in public places, firing a limited number of shots targeted at 
the head or trunk of the body of the targeted person, before escaping 
unimpeded.
    According to reports, a significant number of attacks have been 
proceeded by warnings or death threats, and by patterns of surveillance 
by alleged security force personnel which reportedly led up to targeted 
attacks in or near the victims' homes or offices, or while they 
undertook routine journeys. Following the killing of at least three 
activists in northern Luzon 2005, leaders from the Cordillera Peoples 
Alliance (CPA) and Bayan Muna-Cordillera, reported that they had been 
informed by sources within the AFP that they had been included on a 
military list as targets for attack. They described subsequent 
intensive surveillance or ``casing'' operations conducted by suspected 
military intelligence personnel, including being followed, vehicles 
carrying men (at times covering their faces) stationed outside their 
office or driving repeatedly by, and apparent attempts to break into 
their offices or cars.
    In other cases, well-established AFP counterinsurgency techniques 
appeared to be linked to subsequent attacks. The practice of 
``zoning,'' whereby the military target a village or district believed 
to be influenced by the CPP-NPA, order the inhabitants to assemble to 
listen to lectures, at times using former insurgents now being used as 
military ``assets,'' about the Communist threat so as to encourage 
informants and identify alleged Communist supporters within the 
community, reportedly leads to the public labeling of legal-left 
activists, or their inclusion on military ``orders of battle.''
    Once named, the threat of subsequent assassination attacks by 
unidentified men is markedly increased. In this manner Tarlac City 
Councillor Attorney Abelardo Ladera shot on the highway in central 
Luzon in 2005, had reportedly been named in a news briefing as an NPA 
contact in the region, while Jose ``Pepe'' Manegdeg, shot dead in 
Ilocos Sur in November 2005, had been labeled by the AFP as a NPA 
supporter and had received death threats.
Ineffective investigations and a climate of impunity
    Prosecution and punishment break the cycle of crime and impunity. 
It protects the public from the culprits repeating their crimes and it 
helps to deter others from committing similar crimes by raising the 
real threat that they too, may be caught and punished.
    Failure to investigate political killings effectively and to 
prosecute the perpetrators risks perpetuating a cycle of human rights 
violations, not least by sending a message of de facto state tolerance 
for such practices. If military or other officials, or others linked to 
them, believe that they are, in practice, immune from prosecution for 
such crimes they will be more likely to repeat them. Such a climate of 
impunity undermines public confidence in the administration of justice, 
eroding the rule of law and respect for human rights.
    In the Philippines while the authorities routinely launch police 
investigations into political and other killings, and in May 2006 
established a special unit--Task Force Usig--to better coordinate 
investigations into political killings at a national level, Amnesty 
International is concerned at persistent reports that the majority of 
investigations do not meet international standards as set forth in the 
U.N. Principles on the Effective Prevention and Investigation of Extra-
Legal, Arbitrary and Summary Executions, as supplemented by U.N. Manual 
Effective Prevention and Investigation of Extra-Legal, Arbitrary and 
Summary Executions. Amnesty International is further concerned that 
these investigations have reportedly not led to the conviction of any 
of the perpetrators of the hundreds of killings of leftist activists 
since 2001.
    An international fact-finding mission of lawyers and judges, who 
visited the Philippines in June 2006 in response to reported 
extrajudicial executions of members of the legal profession within the 
context of a pattern of political killings, found that in the cases of 
15 lawyers and 10 judges killed since 2001 none of the perpetrators 
have been convicted. The Secretary of the Interior and Local 
Government, responsible for the police, also informed the mission that 
Task Force Usig had recorded a total of 114 party-list members killed 
since 2001. Out of this total, 27 cases had been filed in court and the 
remaining 86 are still under investigation. Out of the 27 cases filed 
in court, the PNP has arrested suspects in only three cases. No 
convictions have been reported.
Difficulty in investigating?
    In explaining the difficulties in investigating such cases, senior 
police officers described how forensic capability and technology was 
not yet sufficiently developed, so that it cannot stand alone as 
evidence in the absence of eyewitnesses. In May 2006, a police director 
working with Task Force Usig had also acknowledged that the refusal of 
witnesses to come forward is a major obstacle in PNP efforts to 
investigate and to collect evidence sufficient to support the filing of 
criminal charges. The police also blamed witnesses for their 
unwillingness to cooperate, stating that it ``unnecessarily'' caused 
undue delays in the prosecution of such cases. While acknowledging that 
witnesses are fearful of reprisals, one officer suggested this was due 
not to government institutions, but to a ``general fear'' of revenge by 
the NPA. However the lawyers and families of the victims questioned by 
the international fact-finding mission confirmed that they mistrusted 
and feared the police and that in one case, the witnesses to a killing 
had told the victim's family that they had been instructed to sign a 
statement different from the one they had given police.
    Families of the victims have repeatedly complained of protracted 
and inconclusive police investigations which are reported to be 
indefinitely ``stalled'' due to an ``absence of leads,'' or to have 
been ``solved'' if the investigating officers have filed an initial 
police investigation report with the prosecutor--which subsequently may 
not lead to the prosecutor filing charges and applying for a warrant of 
arrest. In conjunction with lack of confidence in the impartiality of 
the police, fear of reprisals, and a lack of an effective witness 
protection program, most investigations remain ineffective and fail to 
lead to the identification, arrest, trial, and conviction of the 
perpetrators.
    Based on the requirement of principle 9 of the U.N. Principles on 
the Effective Prevention and Investigation of Extra-Legal, Arbitrary 
and Summary Executions which states that ``there shall be thorough, 
prompt, and impartial investigations,'' Amnesty International believes 
that urgent steps are needed to ensure investigations are indeed 
effective. In order to exercise due diligence in the protection of the 
right to life and to combat the current pattern of political killings, 
police and other investigative units must be independent and impartial, 
be adequately resourced and have the necessary criminal detection, 
forensic, and other investigative skills.
    Ineffective investigations, which fail to lead to prosecutions and 
convictions, have played a role in sustaining a broader climate of 
impunity that has been allowed to persist since the Presidency of 
Ferdinand Marcos (1965-1986). The vast majority of soldiers, 
paramilitaries, and police responsible for endemic human rights 
violations during the Marcos years have never been prosecuted and most 
of their victims have received neither justice nor redress. Although 
President Marcos' successor, President Corazon Aquino (1986-1992), 
promulgated a new constitution, restored democratic institutions, and 
instituted mechanisms for the protection of human rights, an entrenched 
public belief that a climate of impunity protected security forces 
personnel responsible for past and continuing patterns of grave human 
violations remained intact. President Aquino's administration, 
attempting to manage a political transition from the former martial law 
regime and facing direct challenges from repeated coup attempts by 
right-wing military rebels, considered it necessary to maintain the 
support of loyal military leaders. To this end there was no government 
pressure for systematic investigation and prosecution of security 
personnel accused of perpetrating human violations under martial law 
and in the context of past and renewed counterinsurgency operations.
Impunity
    Amnesty International and other international and national human 
rights groups repeatedly expressed grave concern that the continuing 
paucity of prosecutions and convictions of state perpetrators of human 
rights violations, including extrajudicial executions, 
``disappearances'' and torture, risked entrenching a de facto climate 
of impunity that emboldened security personnel to commit further 
violations in the context of anti-insurgency operations. A bleak 
picture of persistent failures in the administration of justice was 
highlighted by the fact that of the 1,509 cases of alleged human rights 
violations filed by the Philippine Commission on Human Rights before 
the courts between 1987 and 1990, only 11 cases resulted in sanctions 
against the perpetrators.
    Amnesty International is concerned that flaws within the 
administration of justice that have long underpinned a de facto climate 
of impunity--including ineffective investigations, reluctance of 
witnesses to come forward for fear of reprisals, and an apparent lack 
of political will to ensure the prosecution of suspects, continues to 
endure. These flaws were sharply illustrated by a pattern of killings 
of street children and other suspected criminals by unidentified 
``vigilantes'' in Davao City (Mindanao) and Cebu City (Visayas) in 
recent years. In Davao City at least 390 ``criminals,'' mostly alleged 
drugs pushers, solvent abusers, or petty thieves, and including street 
children and youth gang members, have reportedly been shot dead in the 
city since 2001. The majority of attacks were carried out by 
unidentified men on motorcycles, and local human rights groups 
expressed alarm at reports that local police were directly responsible, 
or else had colluded with private ``vigilante'' gangs in carrying out 
such killings in an effort to combat criminality and ``clean up'' the 
city's streets. These concerns intensified as the city's mayor appeared 
to condone the killings, while denying any direct official 
responsibility. Police investigations have failed to lead to the 
identification and arrest of those responsible and Amnesty 
International is not aware of a single prosecution that has led to the 
conviction of any of the perpetrators.
    National and international journalist groups have also expressed 
concern at the high number of unsolved killings of journalists in the 
Philippines. At least 64 journalists are reported to have been killed 
since 1986 as a result of their work, with at least 10 in 2005 and 9 in 
the first 7 months of 2006. Prosecution and conviction of those 
responsible remain rare. The conviction in November 2005 of a former 
police officer responsible for the murder in 2002 of Edgar Damalerio, a 
radio journalist in Pagadian (Mindanao), is reported to be only the 
third such conviction since 1986. During the investigation and 
subsequent trial, Edgar Damalerio's family were repeatedly threatened 
and one witness was killed. The court rejected as false evidence given 
by the accused associates, including police officers.
    Failures to prosecute and convict security personnel suspected of 
carrying out or being complicit in grave human rights violations 
continues to fuel the perception that a climate of impunity is 
shielding such officers from being held to account. Prominent, well-
publicized examples include the failure to bring suspects to trial in 
the case of the reported extrajudicial execution by police of 11 
alleged members of the Kuratong Baleleng bank robbery gang in a Manila 
street in 1995, and the failure to hold anyone accountable for the 
alleged torture by police in 1996 of six men accused of the murder of 
Rolando Abadilla, a former Marcos-era police intelligence officer.
    In this context, public trust in the integrity and effectiveness of 
the criminal justice system as a whole remains at a low ebb. Amid 
periodic allegations of corruption by some public officers, confidence 
that the right of victims of human rights violations to justice and 
redress will be respected continues to be undermined by persistent 
reports of ineffective, protracted investigations by police, public 
prosecutors, or the Office of the Ombudsman; by lengthy delays in the 
course of criminal trials; and by the perception that those with wealth 
or political connections are able to improperly exert influence over 
the investigative agencies or the courts.
    Victims of human rights violations and their families, particularly 
those from poor or marginalized communities, often consider that they 
face overwhelming obstacles in accessing justice--particularly when the 
alleged perpetrators are military or police personnel. As noted above 
and reflected in the case studies in this report, a major obstacle in 
combating impunity in the Philippines is the reluctance of witnesses to 
come forward. Serious intimidation of witnesses has long been a feature 
of cases involving attempts to investigate and prosecute cases of human 
rights violations taking place within the context of the 
counterinsurgency campaign. Death threats and other intimidation of 
witnesses, at times accompanied by offers of financial compensation or 
other inducements, have frequently led to ``amicable'' settlements out 
of court.
    In addition, many victims and their relatives from poorer 
communities are unable to sustain the protracted financial and 
emotional strain of pursuing a complaint or a criminal case, especially 
when required to travel to distant investigative offices or courts for 
hearings that may be subject to repeated last-minute delays, 
administratively ``shelved'' or transferred to a different tribunal. 
Amid such pressures complainants and key witnesses or relatives of the 
victims are liable to refuse to involve themselves in police 
investigations, or to withdraw from further participation in court 
proceedings or investigations conducted by the Philippine Commission on 
Human Rights or Office of the Ombudsman, thus restricting the ability 
of prosecutors and the courts to secure convictions.
Witness protection
    Amnesty International believes that effective protection of 
witnesses and the relatives of the victims must be a priority element 
within PNP investigation efforts. A number of groups including the 
Asian Human Rights Commission have campaigned to ensure that witness 
protection programs in the Philippines are robust and effective. 
Amnesty International shares their serious concerns that the 
implementation of the relevant legislation, the Witness Protection, 
Security and Benefit Act (RA 6981), fails, in practice, to ensure the 
safety of witnesses. Under the act, the Department of Justice is 
empowered to deliver a program of protection to witnesses to grave 
felonies, including secure housing facilities, relocation or change of 
personnel identity, and assistance in obtaining a means of livelihood. 
The law also provides that the court or investigating authority shall 
assure a speedy trial, where a witness admitted into the program shall 
testify, and shall endeavor to finish the proceeding within 3 months 
for the filing of the case. However as noted by the Ateneo Human Rights 
Centre, the reality is that most cases take far longer than 3 months 
not least because of postponements, usually requested by the accused, 
and the length of time that the Supreme Court takes in deciding change 
of venue petitions for the protection of witnesses. Most witnesses are 
reported to lack confidence in the program, and fear that, given 
prolonged delays in criminal proceedings, it will not be able to offer 
protection to them or their families which may be needed to extend over 
years.
Duty of the State
    As described earlier, article 6 of the ICCPR, which provides for 
the right to life, further states that ``No one shall be arbitrarily 
deprived of his life.'' In order to effectively combat patterns of 
politically motivated extrajudicial executions and other unlawful 
killings in the Philippines, the government has a clear duty to 
consistently condemn and prohibit all such killings, to ensure each is 
thoroughly and independently investigated, to bring suspected 
perpetrators to justice and to ensure reparations to victims.
    As stated in 2005 by the U.N. Special Rapporteur on extrajudicial, 
summary or arbitrary killings these duties lie on the authorities in 
relation to killings by nonstate actors, when they act with the 
knowledge or acquiescence of the authorities and as a result are not 
subject to effective investigation, prosecution, or punishment. In 
addition the Special Rapporteur state that crimes, including murder, 
carried out by individuals can also give rise to state responsibility 
in instances where the State has failed to take all appropriate 
measures to deter, prevent, and punish the perpetrators as well as 
address any attitudes or conditions in society which encourage or 
facilitate such crimes. ``In most situations, isolated killing of 
individuals will constitute a simple crime and not give rise to any 
governmental responsibility. But once a pattern becomes clear in which 
the response of the Government is clearly inadequate, its 
responsibility under international human rights law becomes applicable. 
Through its inaction the Government confers a degree of impunity upon 
the killers.''
    An essential part, of due diligence of the part of the state, and a 
crucial component in the battle against impunity, is the conduct of 
effective investigations which lead to prosecution and punishment of 
perpetrators of extrajudicial killings. The U.N. Human Rights 
Committee, responsible for monitoring compliance of state signatories 
with obligations under the ICCPR, identified this as among its 
principal subjects of concern after considering the periodic reports of 
the Philippines in October 2003. Amnesty International shares this 
conviction and urges the government to address the problem of adequate 
investigations and prosecutions in the Philippines. This is 
particularly urgent in relation to the continuing pattern of political 
killings.

                              CONCLUSIONS

    Unearthing the evidence establishing responsibility for the current 
pattern of political killings will take political will. It will require 
political determination and persistent practical efforts to undo the 
legacy of impunity, which has the potential to undermine efforts to 
hold perpetrators of political killings accountable and is aided by the 
assumption that such killings are to some degree an acceptable by-
product of continuing armed conflict.
    It will take sustained efforts to unravel the chronology of events 
that led each attack, to establish the facts constituting every 
political killing and to establish whether there was an official chain 
of command underlying both the crime and its coverup. Effective, robust 
measures are necessary to protect those who come forward to assist the 
case.
    Unless these steps are taken, the corrosive impact of political 
killings will continue and hopes for a just and lasting peace, as 
outlined in the government's 2004-2010 Peace Plan will remain 
unrealized.
    The struggle for respect for human rights, fought with high cost 
from the time of President Marcos and reflected in the 1986 
Constitution and the Philippines' ratification of international human 
rights treaties, is facing a serious challenge. Within the context of 
``all-out-war'' against Communist insurgents the rising incidence of 
political killings risks a retaliatory spiral of killings by armed 
groups. The need is pressing for both sides of the conflict, supported 
by all sectors of civil society, to assert and commit to renewed 
respect for human rights.

                            RECOMMENDATIONS

To the Government of the Philippines
    (1) Not to treat this as a public relations problem; but to take 
serious steps to find out who was behind these systematic killings and 
to make public those findings.
    (2) Fully implement the Melo Commission recommendations.
    (3) Accept offer of assistance from the U.N. and other countries.
    (4) Allow international observers to monitor investigations and 
trials.
    (5) Ensure that the administration speak with one voice on 
condemning these killings.
    (6) Ensure that the new antiterror law is not used to commit human 
rights abuses.
    (7) Announce a comprehensive strategy to stop political killings 
and to bring those involved to justice.
    (8) Amnesty International's 14-Point Program for the Prevention of 
Extrajudicial Executions, based on the U.N. Principles on the Effective 
Prevention and Investigation of Extra-legal, Arbitrary and Summary 
Executions, provides a framework within which the pattern of political 
killings can be stopped. The organization urges the Government of the 
Philippines to implement the program in full.

    Given reports of continuing political killings, Amnesty 
International has made a number of recommendations, addressed to the 
government, international organizations, civil society organizations 
and the armed groups. A summary of key recommendations include:
A. Reassert Respect for Human Rights
    (1) Official Condemnation: Consistently and at every level of 
government condemn all political killings.
    (2) Chain of Command Control: Prohibit orders from superior 
officers or public authorities authorizing, inciting or tacitly 
encouraging other persons to carry out unlawful killings, even through 
silence or failing to take action to investigate, and ensure that those 
in command exercise appropriate and effective control over those within 
their command.
    (3) Action Against ``Death Squads'' and Vigilantes: Prohibit and 
disband any ``death squads,'' private armies, vigilantes, criminal 
gangs, and paramilitary forces operating outside the chain of command 
but with official support or acquiescence.
B. Guarantee the Administration of Justice
    (1) Investigation: Ensure that all complaints and reports of 
political killings are investigated promptly, impartially, 
independently, thoroughly, and effectively. An independent and 
impartial body should exercise oversight to ensure investigations are 
conducted by the police and other investigative agencies in accordance 
with international standards.
    (2) Prosecution: Ensure that those responsible for political 
killings are brought to justice in accordance with international 
standards of fairness.
    (3) Protection Against Death Threats and Other Intimidation: Take 
action to fully implement the Witness Protection, Security and Benefit 
Act (RA 6981) in order to ensure safe, reliable, and durable mechanisms 
guaranteeing the participation in the legal process of witnesses to 
political killings.
C. The Peace Process: Ensure Compliance With the Human Rights Agreement
    (1) All sides of the armed conflict should recommit to and ensure 
compliance with the 1998 Comprehensive Agreement on Respect for Human 
Rights and International Humanitarian Law (CARHRIHL).
    (2) Respect for human rights the ground should be enhanced by 
taking steps to ensure the operation of the Joint Monitoring Committee 
of the CARHRIHL.
D. Action by Other Human Rights Institutions
    National: The Deputy Ombudsman for the Military and Other Law 
Enforcement should conduct prompt, impartial, and effective 
investigations of all reported political killings which should, as 
appropriate, lead promptly to recommendations to the Department of 
Justice to file criminal charges against those found responsible.
To the United States Government
    (1) The Leahy Law must be vigorously implemented. The U.S. Embassy 
must be proactive in identifying members of the Armed Forces of the 
Philippines, who may be involved in political killings.
    (2) The United States should give a strong and clear message to the 
Government of the Philippines that United States-Philippines relations 
will suffer if the current trend in political killings continues and if 
Philippine authorities fail to bring past abusers to justice.
    (3) Report to appropriate congressional committees about the 
reported assistance given to the Government of the Philippines in 
fighting Communist insurgency.
    (4) Insist on specific benchmarks from the Government of the 
Philippines to address political killings.
    (5) Offer technical and other assistance to help solve the cases.

    Thank you for inviting Amnesty International to this important 
hearing.

    Senator Boxer. Thank you, sir. Mr. Martin, executive 
director, Philippine Facilitation Project, U.S. Institute of 
Peace here in Washington.

 STATEMENT OF G. EUGENE MARTIN, EXECUTIVE DIRECTOR, PHILIPPINE 
 FACILITATION PROJECT, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Martin. Madame Chairman, Senator Webb, thank you very 
much for giving me the opportunity to talk this afternoon about 
some of my experiences in the Philippines. My remarks, however, 
do not reflect the views of the United States Institute of 
Peace, which does not advocate specific policy positions.
    I have been working at the Institute of Peace for nearly 4 
years to end violent conflict in one of the most violent parts 
of the country, in the Island of Mindanao. We try to further 
the peace process between the government and the Moro Islamic 
Liberation Front. I believe the work of the Institute of Peace 
provides a model for addressing extrajudicial killings. 
Institute efforts to counter public prejudice and 
discrimination against the Muslim minority, through education 
and advocacy can be replicated in mitigating public apathy over 
the killings.
    USIP's experience in training military officers in conflict 
management and negotiation skills can heighten military 
discipline, and civilian control over security forces. 
Institute programs to enhance the rule of law complement State 
Department and USAID efforts to strengthen judicial 
institutions. By working with the U.S. agencies the Institute 
can contribute to the alleviation of the present violence.
    I believe, Madame Chairman, that the violence is caused by 
two underlying causes: A weak political system and the legacy 
of the Marcos dictatorship. You mentioned being in the 
Philippines in 1986. I was there a year later, and you're 
absolutely right, it was a totally different view. The often 
corrupt and ineffective justice system forces people to resolve 
disputes through direct and extra-legal, and often violent, 
means. Elite families tend to hold political power and economic 
power through threats or violence. Elections tend to be 
corrupt, candidates are often targets of harassment, and voters 
are threatened with retribution for supporting opposition.
    Marcos martial law politicized many institutions, including 
the military and the police. Violence against anyone perceived 
to be opposed to government policies was tolerated, if not 
authorized. Extra-legal arrests, disappearances and killings--
known as salvaging--were condoned and used by the military and 
the regime. Many opponents allied themselves with the National 
Democratic Front, and the Moro Islamic and National Liberation 
Fronts, to provide protection and to fight against Marcos 
martial law. The alienation generated by martial law violence 
between civil society elements suspicious of government 
policies, and security personnel, who see a Communist hand 
behind every civil society protest, continues today.
    I believe the present rash of violence and killings is a 
result of political instability and weakness. President Arroyo 
has expressed a determination to solve the problem and resolve 
the killings. However, I question her capability to take the 
necessary steps to end the killings on her own. She depends 
upon military and provincial elites to remain in office, 
promoting military officers who support her and allowing 
political supporters considerable latitude. Her challenge to 
the Armed Forces to eliminate, in 2 years, a decades-old 
Communist NPA insurgency has given some in the AFP a green 
light to take any action against the NPA and their civil 
society-front organizations.
    I do mention, however, that the Communist insurgency is a 
serious threat to the Philippine Government, and to democracy. 
They are not serious, unlike--as Mr. Kumar said--the MILF, 
which is ready to reach an agreement with the government. I 
don't believe the CCP--OCCP is. As the last remaining Maoist 
insurgency, they use violence and abuse their legal democratic 
space, to advance their power. Their goals are to destabilize 
and weaken the government, gain power through coalitions, and 
eventually replace the democratic system with an ideological 
Communist dictatorship.
    I'm not optimistic about the short-term chances of stopping 
the killings. The National Election Campaigns are underway, 
chances of an upsurge in campaign-related violence is possible. 
Leftists candidates will be particular targets. National 
Security Advisor Gonzalez stated that such candidates will not 
be allowed to win seats in the election. His view will, in a 
sense, give potential hunting licenses to the military and 
local officials who agree with him.
    Many observers feel the new law, an antiterrorism law, will 
increase military operations against civilian opponents. 
Security Advisor Gonzalez has already stated the NPA will be 
labeled a terrorist organization. I believe Ambassador Kenney 
was right in expressing her concern over the killings, and I 
think there are ways of linking our economic and military 
assistance to try to resolve some of these problems.
    Thank you.
    [The prepared statement of Mr. Martin follows:]

Prepared Statement of G. Eugene Martin, Executive Director, Philippine 
     Facilitation Project, U.S. Institute of Peace, Washington, DC

    I appreciate the opportunity to participate in this hearing on the 
tragic extrajudicial killings in the Philippines. Having lived in the 
Philippines for 6 years and now working to facilitate the peace process 
in Mindanao between the government and the Moro Islamic Liberation 
Front (MILF), I am well aware of the many political, economic, and 
social issues underlying these violent acts.
    The Philippine Facilitation Project of the Institute of Peace is an 
excellent model for active U.S. engagement in conflict situations. At 
the request of the State Department, the Institute has been working for 
nearly 4 years to end conflict between the central government in Manila 
and the Islamic Moro people of Mindanao. The centuries-long conflict 
has made the southern Philippines one of the most violent areas of the 
country. The Institute is actively exploring with negotiators from the 
Philippine Government and the MILF alternatives for resolving the long 
conflict. As an independent, nonpartisan Federal institution, the USIP 
is able to promote U.S. interests unofficially. Our work gives us 
insights into the causes of violence in society, not only in Mindanao 
but nationwide. That said, my remarks represent my opinion based upon 
my experience and do not necessarily reflect the views of the United 
States Institute of Peace, which does not advocate specific policy 
positions.

                        ROOT CAUSES OF VIOLENCE

    I believe there are two underlying causes of the violence. First, 
weak political and social institutions, particularly a corrupt and 
ineffective justice system, prompt citizens to resolve conflicts on 
their own. When one cannot obtain justice through the police or courts, 
alternative means are found. This can be through direct personal 
action, drawing upon family or clan support, or arranging for criminal 
or revolutionary organizations to settle matters.
    In Philippine society, family is primary. Nearly any action can be 
justified if it is to support the family. Kinship ties extend well 
beyond the nuclear family, into clans and tribal or community groups. 
Identities often are based on familial or, being an island nation, 
geographical relationships rather than broader nationalism. In Mindanao 
much of the violence is caused by clan conflicts, known as ``rido,'' 
which can continue for generations. Absent access to, or confidence in, 
justice through legal mechanisms and institutions, the aggrieved party 
often takes direct action against the perceived offender to obtain 
satisfaction.
    The fractious nature of society leads to weak political 
institutions. Elite families who hold political and economic power in 
much of the country often seek to maintain their power in any way 
possible. Elections tend to be corrupt, candidates running against 
incumbents are often the targets of harassment if not violence, and 
voters are threatened with retribution for opposition to power holders. 
Prime targets also for threats and violence, including killings, are 
media or civil society investigators into political and economic 
corruption.
    The second underlying cause of violence is the legacy of the Marcos 
dictatorship. Martial law politicized the institutions of government 
and violence against anyone perceived to be opposed to government 
policies was tolerated if not authorized. Soldiers, police, judges, and 
prosecutors became perpetrators of violent actions against broad 
segments of the population. Extralegal arrest, detention, 
incarceration, disappearances, and killings (known as salvaging) were 
condoned and used to advance the regime's power and reduce political 
opposition.
    Many of those who opposed the Marcos regime responded in similar 
fashion. Lacking legal of safe alternatives, many allied themselves 
with revolutionary organizations for protection and influence. These 
included the National Democratic Front (NDF) of the Communist Party of 
the Philippine (CPP) and, in Muslim areas, the Moro National Liberation 
Front and subsequently the Moro Islamic Liberation Front. While many if 
not most of those who affiliated with the NDF during martial law years 
were not Communist, the NDF provided the only available support network 
against Marcos. Marcos' militarized response to the historical struggle 
of the Moros against Manila's colonial policies enhanced the appeal of 
those who advocated armed violence to counter military and militia 
pogroms against Muslim civilians. The violence of the Marcos regime 
abetted the Communist insurgency and Moro decisions that safety was 
possible only through independence from the Philippines rather than by 
working within the political system.

                  CURRENT SITUATION IN THE PHILIPPINES

    I believe the present rash of violence and killings is the result 
of political instability and weakness. President Arroyo has expressed 
her determination to address and resolve the killings. She established 
the Independent Commission to Address Media and Activist Killings, 
headed by former Supreme Court Associate Justice Jose Melo. She also 
welcomed the investigation of Professor Philip Alston, the Special 
Rapporteur of the U.N. Human Rights Council. However, I question her 
capability to take the necessary steps to end the killings. She has 
been politically weak since her controversial election in 2004, 
depending upon support from military and provincial leaders to counter 
impeachment measures by her opponents in Congress. She has promoted 
military officers who support her and placed retired military and 
police officers in high-level civilian offices. Her challenge to the 
Armed Forces of the Philippines (AFP) to eliminate the decades old 
Communist New Peoples Army (NPA) insurgency within 2 years has given 
the AFP a green light to take any action it wishes against the NPA and 
their allies. Faced with a persistent low-level NPA insurgency, the 
military resorts to stretching counterinsurgency strategies to branding 
leftist organizations as enemies of the state that can be intimidated 
or eliminated by any means.
    The Communist insurgency is a serious threat to the Philippine 
Government and democracy. The world's last remaining Maoist insurgency, 
the NDF, uses violence and abuses democratic privileges to advance its 
power. As a legal political movement, NDF leaders are elected to 
Congress where they continue to oppose the administration and seek to 
block or destabilize government policies. During election campaigns, 
the NDF uses kidnappings, ``revolutionary'' taxes, threats, and 
violence to support its candidates and harass opponents. The party's 
political goals are to weaken the government, gain power through 
coalitions, and eventually replace the democratic system with an 
ideological Communist dictatorship.
    One of the legacies of the Marcos regime is the continued 
alienation of many civil society elements from the government and 
especially the military. NGOs, religious bodies, academics, small 
farmers, and indigenous peoples remain suspicious of government 
officials and military personnel because of the oppression and violence 
used against them during martial law. Many government officials, 
particularly in the armed forces and police, reciprocate the mistrust, 
seeing a Communist hand behind civil society protests against 
administration policies and actions. Powerful elites influence local 
police or military commanders to use force against farmers' complaints 
over land grabs or workers' demonstrations over working conditions. 
Murders of activist farmers and labor leaders in rural provinces are 
covered up. Journalists investigating the crimes become targets. 
Similarly, prosecutors and judges are intimidated. Tragically, the 
result is further alienation from and resistance to the government.
    The killings have become a major issue within the Philippines, yet 
there is little public outrage despite the release of the Melo 
Commission report and the initial criticisms of the Special Rapporteur 
of the U.N. Human Rights Council. Public perceptions are influenced by 
military and official attributions that most of the killings are 
internal CPP-NPA purges. Most civil society reaction has been from 
leftist oriented NGOs rather than mainstream organizations, further 
limiting public concern.

                SHORT-TERM PROSPECTS IN THE PHILIPPINES

    While we all hope the killings will stop immediately, I am not 
optimistic in the short run. I am confident, however, that through 
conscientious efforts by Philippine political and civil society 
leaders, as well as international partners such as the United States, 
this cycle of violence can be halted.
    My pessimism over short-term remedial action by the government is 
based upon the following:

--It is election time again. Campaigning for national elections on May 
    14 is well underway. Little if any serious effort will be exerted 
    to investigate killings of political significance. In fact, as 
    contesting parties struggle to win by any means, there will likely 
    be an upsurge of campaign related violence.
--Candidates from left-wing political parties will be particular 
    targets. National Security Advisor Norberto Gonzales stated on 
    March 8 that such candidates must not be allowed to win seats in 
    the Congress. The Gonzales view that party-list candidates ``are 
    under the direct influence of the Communist Party'' gives a 
    potential hunting license to military and local officials who agree 
    with him.
--The new antiterrorism law, which President Arroyo signed on March 6, 
    gives new ``legal teeth'' to the government's war on terrorism. The 
    Arroyo administration describes the law, titled the ``Human 
    Security Act of 2007,'' as being ``very concerned on human 
    rights.'' Many observers fear the law may increase unfettered 
    military operations against opponents deemed to be terrorists. 
    National Security Advisor Gonzales has already stated that the NPA 
    will be labeled a terrorist organization when the new law is 
    promulgated. Legal leftist organizations and elected individuals 
    may be designated.
--The new Defense Secretary, Hermogenes Ebdane, Jr., is a retired 
    police officer. He succeeds a civilian. Senior Department of 
    National Defense officials are now mostly former military officers 
    rather than civilians. Secretary Ebdane likely will promote 
    military perceptions of security threats. U.N. Rapporteur Alston 
    stated ``the AFP is in a state of almost total denial . . . of its 
    need to respond effectively and authentically to the . . . killings 
    . . . attributed to them.''

    The killings and the state of democracy in the Philippines have 
implications for U.S. interests. Prolonged United States support for 
the Marcos regime in order to save our military bases alienated many in 
the Philippines. U.S. Ambassador Kenny has rightly expressed official 
U.S. concern over the extrajudicial killings. However, other U.S. 
interests--counterterrorism cooperation and training opportunities the 
AFP provide U.S. forces--may limit pressure on the Arroyo 
administration.
    The U.S. Institute of Peace involvement in the Mindanao peace 
process provides insights into many of these issues. It is readily 
apparent that there are multiple, often uncoordinated, policymakers in 
the Arroyo administration with diverse agendas. The President has 
authorized her negotiators to propose a forward-looking self-
determination package to the MILF. Yet, military officers in central 
Mindanao continue to support local political leaders who use their 
militia as private armies to contest MILF influence. The Arroyo 
administration avoids exercising national authority over local 
political and economic interests opposed to a peace agreement with the 
Moros so as to retain their support against administration opponents. 
It expends little effort to counter biased or incorrect media reports 
on Mindanao events.

                            RECOMMENDATIONS

    The United States and other nations are not without influence to 
help end the violence of extrajudicial killings. The Philippines is 
sensitive to and dependent on the goodwill and support of its neighbors 
and international donors. Some useful tools include:

  <bullet> Donor nations and international financial institutions 
        already have strong anticorruption requirements for economic 
        assistance. Linking assistance to forceful judicial reform and 
        independent investigations of the killings would enhance the 
        resolution of the cases.
  <bullet> Philippine desires to qualify for the Millennium Challenge 
        Corporation assistance gives the U.S. influence to demand 
        rigorous action against the killings.
  <bullet> The sizeable defense relationship the United States has with 
        the Philippines provides a mechanism to encourage civilian 
        control over the armed forces.
  <bullet> Forceful public U.S. official support for human rights 
        reforms and protections would counter some Filipino perceptions 
        that U.S. concern over the killings is tempered by our efforts 
        to counter terrorism.

                           MODEL FOR SUCCESS

    The U.S. Institute of Peace has established a unique relationship 
with key players in the peace process in Mindanao. Working with minimal 
publicity, the Institute has made a significant contribution to the 
progress in the talks over the past 4 years. The Institute has worked 
closely with civil society to foster open debate to mitigate Filipino 
public prejudice and discrimination against the Moro minority. Engaging 
NGOs, church leaders, educators, and media representatives, the 
Institute seeks to change public perceptions of the conflict and the 
benefits a durable peace agreement would bring the nation. Similar 
programs focused on highlighting a need to end the extrajudicial 
killings and to bring perpetrators to justice could help strengthen 
judicial institutions and public demands for resolution of the 
killings.
    The Institute's peace efforts supplement Embassy, USAID, and the 
Pacific Command's counterterrorism and developmental programs and 
priorities. Working independently but cooperatively with these official 
U.S. agencies, the Institute addresses the political, religious, 
historical, and social issues underlying the conflict. Parallel 
programs dealing with judicial reform, civilian control over security 
forces, and amelioration of the Communist insurgency could begin to 
address the causes of the killings. Institute efforts to reduce intra-
Moro clan and tribal conflict through support for dialog and 
cooperation among the next generation of Moro leaders could be 
duplicated in other conflict situations, which now end in political 
killings.
    Regrettably, the State Department's support for the Institute's 
facilitation project is ending just as the peace process is at a 
critical juncture. Once the negotiators reach agreement on outstanding 
issues, a politically contentious, long-term transition period to 
implement the agreement will require close monitoring and engagement. 
Granting the Moros self-determination will alter power relationships in 
Mindanao. The potential for extralegal violence is real. Continued 
Institute presence is critical to help both Muslim and Christian 
communities through this difficult period. Without renewed funding, 
however, the Institute's unique investment of trust and credibility 
with key players will be lost prematurely.
    The coordinated approach U.S. agencies, the Institute of Peace, 
neighboring countries, and international donors have used to advance 
the Mindanao peace process can be replicated to resolve the 
extrajudicial killings. U.S. interests would be served and the 
Philippines would benefit.
    Thank you, Madam Chairman. I welcome your questions and those of 
your colleagues.

    Senator Boxer. Thank you for that excellent testimony, both 
of you.
    And now, Bishop, we welcome you. We know it took some 
courage. We really welcome you here.

  STATEMENT OF BISHOP ELIEZER PASCUA, GENERAL SECRETARY, THE 
   UNITED CHURCH OF CHRIST IN THE PHILIPPINES, QUEZON CITY, 
                          PHILIPPINES

    Bishop Pascua. Hello. Thank you very much, Senator Boxer, 
Senator Webb. Good afternoon.
    I'm Bishop Eliezer Pascua, general secretary of the United 
Church of Christ in the Philippines. I was elected by our 
Eighth Quadrennial General Assembly that was held in Mindanao 
last May 2006. But, before my election, I was serving as 
jurisdictional Bishop of the Southern Luzon jurisdiction--the 
area where many of our church workers, pastors, and lay leaders 
were killed.
    I've come to the United States of America, first by the 
invitation of our partner church, the Presbyterian Church 
U.S.A., through the sacramento presbytery, particularly. And, 
also being delegate to the Ecumenical Advocacy days just 
concluded, and a delegate also of the ongoing International 
Ecumenical Conference on Human Rights situation in the 
Philippines, here in Washington DC.
    I appear before this hearing as a witness to the fact that 
political and extrajudicial killings are happening in the 
Philippines. I think it is not superfluous to repeat, coming 
from us, that extrajudicial killings have been happening in our 
country. And included among numerous victims were church 
people, priests, pastors, even bishops, and lay leaders, 
working for the church. I am speaking from the ground, so to 
speak, but let me inform this body that our general assembly--
in May of last year--which elected me to the position of 
general secretary, passed a strongly worded resolution 
condemning the ongoing, unabated political killings in the 
country that were then--as far as we know--more than 600 
victims already and 9 members and pastors of the UCCP. About 15 
or so are coming from the whole of the churches.
    But right during the course of our discussion, one of our 
active lay leaders was also slain--Mr. Noli Capulong, who was 
an active member of Calamba UCCP, 45 kilometers south of 
Manila. He was a brother of Noli Capulong, Atty Emilio 
Capulong, who was the principle author of this resolution.
    Such an event made the general assembly discussion about 
the resolution more intense, and therefore they passed an 
action, or asked to hold, and call for a Peace and Human Rights 
Summit in which we did last July where we called International 
Ecumenical Partners and organizations aside from other church 
partners.
    I am speaking now from representing the voices of the 
victims from the churches. Our pastors who are victimized 
suffered just like many others. Most of them were killed in 
broad daylight by two motorcycle-riding men. There were 
supposed to have been many witnesses, but until now their cases 
remain unsolved, just like the 836 fatalities or victims. Those 
cases of those who were killed, until today, remain unsolved.
    So, Madame Senator may I make this call as part of our 
summary of calls. One, we ask this committee to ask the 
Philippine Government to immediately stop the extrajudicial 
killings, abductions, and other forms of human rights 
violations. And that the revocation of all hit lists, which 
target church people, and others, and label us as Communist 
Front Organizations. No. 2, to ask the Philippine Government to 
take effective measures to bring to justice members of its 
Security Forces and their agents against whom there is credible 
evidence of human rights violations. And No. 3, call upon the 
Philippine Government to comply with its obligations under 
international law, and rescind its national security policy 
under its current counterinsurgency and counterterrorism 
campaign, which has the effect of legitimizing and encouraging 
the killing of innocent civilians. This includes making the 
distinction between combatants and noncombatants, as well as 
labeling, as falsely accusing critics of the Philippine 
Government's policies, or those who advocate for human rights, 
or being enemies of the state.
    Thank you very much.
    [The prepared statement of Bishop Pascua follows:]

  Prepared Statement of Bishop Eliezer M. Pascua, General Secretary, 
  United Church of Christ in the Philippines, Quezon City, Philippines

                              INTRODUCTION

    I am Bishop Eliezer M. Pascua, General Secretary of the United 
Church of Christ in the Philippines (UCCP). I was elected to this 
office during our 8th Quadrennial Session of our General Assembly held 
May 2006 in Digos City, Davao del Sur.
    However, before my election as General Secretary, I was serving as 
Jurisdictional Bishop assigned in Southern Luzon Jurisdiction for a 
total of 14 years with only 2 years break (1990-98 then 2000-2006). 
From 1998-2000 I served as administrative pastor of a local church in 
College, Los Banos, Laguna. The Southern Luzon Jurisdiction covers the 
UCCP churches in areas within three political regions, namely, National 
Capital Region which is mainly Metro Manila area, southern Tagalog and 
Bicol region.
    I have come to the United States of America first, by the 
invitation of the Presbyterian Church (USA) particularly through the 
Presbytery of Sacramento in keeping with our church-to-church 
partnership and their solidarity with us under the present predicament 
we and the Filipino people are in, especially with respect to the human 
rights situation, and second, by being a delegate to the Ecumenical 
Advocacy Days and to the International and Ecumenical Conference on 
Human Rights Situation in the Philippines which is taking place in 
Washington, DC, March 12-14, 2007.
    Now, I appear before the hearing of the U.S. Senate Subcommittee on 
East Asian and Pacific Affairs as a witness to the fact that political 
or extrajudicial killings are happening in the Philippines and included 
among numerous victims were church people: Priests, pastors, even 
bishop and lay leaders working for the church.

                       ATTACK AGAINST THE CHURCH

    Let me inform this body that during our General Assembly in May 
last year, which elected me to the office of General Secretary of the 
UCCP, the delegates passed unanimously a strong resolution condemning 
the extra judicial killings being done against human rights activists 
and church people and calling the Office of President Gloria Macapagal-
Arroyo to put a stop to it. But coupled with that resolution was a 
mandate that the UCCP hold a Human Rights and Peace Summit in 
cooperation with partner churches and civil society groups and 
ecumenical international bodies.
    Let it be put on record that at the height of the deliberation on 
such resolution by the General Assembly, Mr. Noli Capulong, an active 
lay leader of UCCP-Calamba of the Northeastern Southern Tagalog 
Conference and spokesperson of Southern Tagalog Environmental Action 
Movement, was shot dead by two unidentified motorcycle-riding gunmen at 
around 6 p.m. of May 27, 2006, in Calamba, Laguna (about 45 kms south 
of Manila). Noli had long been under military surveillance for his 
advocacy work for justice, peace, human rights, and environmental 
concerns. And he happened to be the youngest brother of Atty. Emilio 
Capulong who was the principal author of such resolution and also a 
staunch defender of human rights himself.
    All the more our demand for justice and call for the stopping of 
political killings and other forms of human rights violations became 
more intense. We just held the Peace and Human Rights Summit last July 
21, 2006, in cooperation with the National Council of Churches in the 
Philippines, the Ecumenical Bishops Forum and the Roman Catholic 
Benedictine Sisters for Peace. It was participated in by many 
representatives from various churches and organizations locally and 
internationally where we invited also some living victims themselves 
and/or relatives of the killed victims to share about their grim 
experiences of human rights violations.
    I am sharing this story to say that even this trip of mine to the 
USA is part of that whole advocacy of our church to stop the killings, 
end the violence, and work for and promote change to make current life 
in the Philippines different from what it is now.
    From the year 2001 to the present we came to know that there may 
already be as high as 836 persons killed extralegally in the 
Philippines. The victims actually came from all walks of life: Farmers, 
fisherfolks, workers, indigenous people, Moro people, journalists, 
lawyers, doctors, teachers, students, young persons, women, and even 
children. I would like to make particular mention that church people 
were also not spared.
    Among the 836 or so who were killed, 26 were church people, clergy, 
and lay persons. The church people killed came from the Philippine, 
Independent Church, United Methodist Church, Born Again Christian 
Church, United Church of Christ in the Philippines, and Roman Catholic 
Church for many of the lay persons. Out of the 25 church martyrs, 15 
belonged to the United Church of Christ in the Philippines. That is why 
we are called the hardest hit among the churches.
    With such an appalling death toll of extrajudicial killings in our 
country at this time of the Arroyo administration, nobody could ever 
claim that she/he is not afraid and is safe. I admit that I have that 
fear rather now and later when I go back to the Philippines. How much 
more with those who have always been there who were close or in 
proximity with the victims within their household or even in their 
community when they were assassinated. You can all imagine the chilling 
effect among the people that this extralegal killings have been 
causing.
    Reportedly, almost all of these cases actually remain unsolved, and 
that even those cases that the military or police ruled as either the 
work of the antigovernment group or ordinary crimes that they claimed 
solved, however, remained to be the result of unsatisfactory and 
unbelievable police crime investigation work.
    Example of this was the killing of Bishop Alberto Ramento last 
October 3, 2006, right inside his convent in Tarlac City. Bishop 
Ramento was receiving death threats already before he was killed. The 
Philippine National Police (PNP) report said that Bishop Ramento was 
stabbed to death by robbers. Simply because Bishop Ramento's cellular 
phone and ring were discovered stolen after the incident, the PNP was 
quick to dismiss the case as a simple case of robbery with homicide. 
But people were in wonderment, particularly those who conducted a fact-
finding mission, that the crime scene investigation by the police was 
perfunctorily and hastily finished in about 2 hours and, thereafter, 
they did not cordon off the crime scene, thus, allowing everyone in.
    Apparently no fingerprint was taken during the crime scene 
investigation because the police report never came up with a 
fingerprint finding. Except for the sworn statement of the church 
caretaker, Archimedes Ferer, there was also no interview done on the 
family and the people close to Bishop Ramento after the crime scene 
investigation and before the PNP single-mindedly declared it just a few 
hours after the crime scene investigation that it was a case of robbery 
with homicide.
    A few days after the tragic incident, the Philippine National 
Police presented four men as suspects in the case. However, according 
to observers, an analysis of their investigation would reveal 
questionable results.
    In most of the earlier cases of killings, however, the police and 
military were hastily concluding that the crime was the work of the New 
People's Army (NPA) or antigovernment groups since the assailants 
usually were unidentified men riding in motorcycles and since no 
witnesses are willing to testify so the cases just lied there unsolved.
    Let me tell you that in virtually all cases of killings of the 
church people, just like in the rest of the cases, the police and 
military were always in complete denial of their accountability and 
responsibility despite their having clear leads or evidence in most 
cases that apparently point to them. I would like to cite the following 
cases:
    The killing of Rev. Edison Lapuz along with Mr. Alfredo Malinao on 
May 12, 2005, in Sitio Motor, Barangay Crossing, San Isidro, Leyte (in 
the major island group of Visayas). Reverend Lapuz was the Conference 
Minister of the United Church of Christ in the Philippines-North 
Eastern Leyte Conference, where Mr. Malinao was a village councilor. 
They were killed pointblank by two motorcycle-riding men wearing bonnet 
masks and helmets right just at the back of Reverend Lapuz' house when 
they were whiling away some hours after having done the funeral for his 
father-in-law that afternoon.
    But the lead was more on the instances a few days before the 
incident. Mr. Fortunato Lapuz, father of Edison, reported to the Fact 
Finding team that Lieutenant Mangohon, the commanding officer of the 
local military detachment visited their house several times. On May 1, 
2005, Mr. Lapuz was asked whether he knew of Reverend Lapuz' 
organizational involvements and whether he knew Benito Montecena, 
Alberto Mauring, Benjamin Tumbiga, and Fernando Kiling, all members of 
local small farmers group. Then he was told that Reverend Lapuz and the 
said farmers were under surveillance by Lieutenant Mangohon's team. On 
May 3, 2005, the same Lieutenant Mangohon returned with another person 
and requested if they could look into the family album. Mrs. Lapuz who 
was the only person at the house allowed them to do so. Lieutenant 
Mangohon, being a soldier well identified as such by Reverend Lapuz' 
parents is an indispensable person that must be included in the 
investigation. But until now we don't know of any investigative action 
that has been done on this Lieutenant Mangohon if only to find out the 
real truth.
    The assassination of Rev. Jemias Tinambacan and the frustrated 
killing of his wife, Rev. Marilou Tinambacan is another good case to 
have a lead for evidence. Reverends Jemias Tinambacan and Marilou are 
both UCCP Pastors in Misamis Occidental and both are active members as 
well of ecumenical organizations Ecumenical Center for Development 
(KASIMBAYAN) and Promotion of Church Peoples' Response (PCPR). The 
tragic incident took place on May 9, 2006, at about 5:30 p.m. along the 
national highway in Barangay Mobod, Oroquieta City, Misamis Occidental 
in Mindanao. Four armed men on board two motorcycles suddenly appeared 
on the side of their van and began shooting them.
    Reverend Jemias after being hit by those gunshots lost control of 
the wheel of their van and crashed onto a tree. Reverend Jemias 
sustained three gunshot wounds at his head while Reverend Marilou 
luckily, however, was not hit as badly as she was able to hide beneath 
the dashboard of the van. As the suspects continued firing at the 
vehicle Reverend Marilou even saw and identified one of them as Orland 
``Mamay'' Guimalan, a known military intelligence agent in their place.
    Madame Senator and members of this subcommittee, friends, I can 
cite many more of these cases of extrajudicial killings whose 
perpetrators could have been identified and brought to the bar of 
justice if the authorities and our government would make the force and 
order of law to operate.
    You may also have been asking in your mind at this point why these 
church people are being killed. I tell you they were killed not merely 
because of the church where they belong to, but more so because they 
have been actively involved in doing their task as servants of God. 
Their expression of faith is not confined within the four walls of the 
church but extend among the people in their community. They were like 
modern-day prophets whose commitment and service to God is seriously 
being carried out in journey with the poor people in their struggle for 
abundant life. And because of this, their names are being listed down 
under the military's Order of Battle as presented in their CD entitled 
``Knowing the Enemy.''

                           CONCLUDING REMARKS

    But so long as our government and the police and military would 
always look at the whole country and particularly the restless and 
critical citizens as a battlefield for their counterinsurgency and war 
on terror, political killings, enforced disappearances, and other forms 
of human rights abuses shall not be abated.
    And so long as the government and the military would continue to be 
in complete denial of their responsibility of any degree to any of 
these innocent lives that have been sacrificed unnecessarily there is 
no way that we could force them to stop the killings. Their sense of 
impunity had reached to a point like having the ``hardened heart of 
Pharaoh'' in the Exodus story.

    Senator Boxer. Thank you, sir.
    Ms. Enriquez.

    STATEMENT OF MARIE HILAO-ENRIQUEZ, SECRETARY GENERAL OF 
    ALLIANCE FOR THE ADVANCEMENT OF PEOPLE'S RIGHTS IN THE 
       PHILIPPINES (KARAPATAN), QUEZON CITY, PHILIPPINES

    Ms. Hilao-Enriquez. Yes; good afternoon to this honorable 
committee, and thank you very much, Senator Boxer. Thank you 
very much, Senator Webb, for giving us this opportunity to 
relate to you what's happening in our country.
    I'm Marie Hilao-Enriquez, secretary general of the Human 
Rights Organization called KARAPATAN, which documents and 
investigates cases of human rights violations in my country. We 
have 15 regional centers, and we put out annual reports on 
human rights in the Philippines.
    Today is the birthday of my sister, Liliosa Hilao, who was 
killed in a detention center in Camp Crame 34 years ago during 
the martial law period of President Marcos.
    The killings, tortures, and horrors of those days of 
martial law are now being brought back in by the Arroyo 
administration. We have seen a worsening human rights situation 
under President Arroyo's watch. From 2001 up to the present, 
our group has documented 836 victims of extrajudicial killings, 
196 victims of enforced disappearances, 355 victims of 
frustrated killings. Military deployments are happening in the 
rural areas identified by the military as priority areas for 
counterinsurgency. Lately, we are alarmed that not only 
military deployments are happening in the rural areas, but in 
urban slum areas as well.
    The victims of extrajudicial killings--as has been already 
said--include lawyers, farmers, leaders of trade unions, 
indigenous people, the Moro people, women, youth activists, 
church people, and out of the 836 victims, 31 KARAPATAN workers 
have been killed under the Arroyo administration.
    In areas of counterinsurgency programs, cases of human 
rights violations, like harassment of individuals, evacuations, 
torture, and illegal arrests are also happening. In many of the 
cases of extrajudicial killings, we found out the 
responsibility or culpability of the military and police.
    What are the reasons for these human rights violations 
under Mrs. Arroyo's Presidency? The country has not experienced 
any substantial changes, especially in our economic conditions. 
People remain poor, and as the policies of globalization are 
being implemented by this administration, people have become 
restive and protests--which are constitutionally guaranteed 
rights under our Constitution--are happening.
    But the response of the government is like that of the 
dreaded Marcos regime, one of repression. President Arroyo, has 
resorted to a calibrated preemptive response, banning all 
rallies in Metro Manila, and other parts of the country. She 
has resorted to Executive Order 464, which stipulates that no 
government official can testify in congressional or Senate 
hearings, unless she has permission. She resorted to a national 
State of Emergency last year in what we term as a ``foray of 
Mrs. Arroyo''--of President Arroyo--into having martial law 
powers. Lately, she has signed into law the Anti-terror, or 
Human Security Act, which we think will pave the way for a more 
martial law-like atmosphere in the Philippines.
    She has resorted to an all-out war against the insurgents, 
implementing a counterinsurgency program called Oplan Bantay 
Laya, which purportedly is the endgame strategy to end the 
insurgency. But, to us, this has remained the state policy 
under the aegis of the U.S. Bush's War on Terror, and she has 
given 1 billion pesos to this counterinsurgency program. This, 
to us, is the cause of many of the extrajudicial killings, 
because the military has resorted to labeling many of the 
victims as ``Communists'' or ``terrorists'' under this Oplan 
Bantay Laya.
    A surveillance of, and harassments happen to these victims 
before the killings, and perpetrators conceal their identities. 
We call on the Senate subcommittee to please adopt the 
documents that we submitted to this body as part and parcel of 
my oral and written testimony before this honorable 
subcommittee. My testimony adds to what Bishop Pascua has said.
    We call on the Senate committee to conduct an 
investigation, review and examination of the U.S. security 
cooperation, and military assistance, and aid to the Philippine 
Government, and ensure that it does not support the national 
security policy that exacerbates the violations of human 
rights, including the killing of church people and human rights 
activists.
    We call on you to review U.S. development assistance to the 
Philippine Government, as well as trade and economic 
arrangements, and look into whether such aid and investments 
exacerbates, instead of reduce, social and economic inequities, 
and aggravate--rather than stop--the prevalent violations of 
human rights. It must be ensured that such appropriations and 
investments are not, in any way, used to promote or contribute 
to the perpetration of such violations. We ask your committee 
to ensure----
    Senator Boxer. You need to wrap up now.
    Ms. Hilao-Enriquez [continuing]. Ensure that any future 
U.S. military appropriations and economic and official 
development assistance to the Philippine Government be 
conditioned to a strict adherence to international laws and 
standards of human rights and good governance.
    Thank you very much.
    [The prepared statement of Ms. Hilao-Enriquez follows:]

   Prepared Statement of Marie Hilao-Enriquez, Secretary General of 
  Alliance for the Advancement of People's Rights in the Philippines 
                 (KARAPATAN), Quezon City, Philippines

    To the distinguished Senators of the subcommittee: First, let me 
express my sincerest gratitude to Senator Barbara Boxer and the members 
of the Subcommittee for East Asian and Pacific Affairs of the Senate 
Foreign Relations Committee, for conducting this hearing on the events 
happening in the Philippines. The rest of the members of our delegation 
share the same sentiment.
    I am Marie Hilao-Enriquez, secretary general of the human rights 
group in the Philippines, called KARAPATAN. My organization has been 
documenting cases of human rights violations in the country since 1995. 
Let me also say that I am one of the martial law survivors and my 
parents as well as one of my sisters are among the named lead 
plaintiffs in the historic class action suit against Marcos that we 
filed in the U.S. Federal Court system in 1986. In 1992, the class 
action suit won for the Filipino martial law victims a landmark ruling 
holding Marcos guilty of crimes against humanity.
    I have come before you, after several trips here in the United 
States and other countries, in an effort to inform the Filipinos abroad 
as well as citizens of the countries I visited of the alarming human 
rights violations happening under the watch of the sitting President--
Mrs. Gloria Macapagal-Arroyo.
    Let me put on record at the outset that complementary to the 
following, I am hereby adopting and incorporating by way of reference 
the Summary of Calls of the Ecumenical Voice on Peace and Human Rights 
in the Philippines, ``Let the Stones Cry Out,'' an ecumenical report on 
the human rights situation in the Philippines, released by the National 
Council of Churches in the Philippines (NCCP) March 2007, and the 
compendium of selected documents accompanying the foregoing as part and 
parcel of my oral and written testimony before your honorable 
subcommittee.
    When Mrs. Arroyo was catapulted to the Presidency in 2001, the 
country's human rights situation has not improved but has gone for the 
worst. Immediately upon assuming office, Mrs. Arroyo implemented the 
same economic policies of past administrations that did not change the 
conditions of the majority poor and ordinary Filipinos.
    Her boasted ``sound economic fundamentals'' have sent more of our 
fellow Filipinos out of the country seeking for jobs abroad, sometimes 
even in countries where war is raging and their lives are placed at 
great risk. The economic conditions of our people have worsened to a 
point that the latest surveys would indicate that more Filipinos would 
consider themselves poor and hungry.
    Instead of promoting democracy and human rights consistent with the 
spirit of a People Power uprising that catapulted her to power in 2001, 
Mrs. Arroyo's administration has curtailed civil liberties, disregarded 
human rights and international humanitarian laws, and launched attacks 
on the people.
    The infractions on civil liberties and human rights occur against 
the background of a worsening political crisis of the Arroyo government 
and increasing foreign military involvement by President George Bush's 
administration.
    Mrs. Arroyo is facing calls to vacate the executive office on 
serious charges of massive electoral fraud and graft and corruption, 
intense and vicious extrajudicial killings, political persecution and 
serious affronts to civil liberties consistent with her constant agenda 
for political survival.
    Mrs. Arroyo has so far faced two impeachment complaints in the 
Philippine Congress for violation of the 1987 Constitution, betrayal of 
public trust, graft and corruption and human rights violations. Those 
who dare criticize the Arroyo government publicly risk being labelled 
as ``destabilizers'' or ``Communist sympathizers'' or even 
``terrorists.''
    Mrs. Arroyo and her allies recently enacted into law the 
``antiterrorism bill'' (ATB), now called the Human Security Act of 2007 
which will practically kill the constitutionally enshrined bill of 
rights and, many Filipinos fear, could be used as a legal ground for 
declaring martial law.
    In the aftermath of the attacks in the United States on September 
11, 2001, Mrs. Arroyo declared her support to the U.S. ``war on 
terror.'' The Philippines began receiving increased U.S. military aid 
and was named America's major ``non-NATO ally in Asia.''
    Based on the June 2005 World Policy Institute Special Report, the 
Philippines has a requested Foreign Military Funding (FMF) aid from the 
U.S. Government of US$4.5 billion in 2006, a full $1 billion increase 
from the FY 2001 level. The worrisome part of this aid, the same report 
says, is that ``arming undemocratic governments all too often helps to 
enhance their power, frequently fueling conflict or enabling human 
rights abuses in the process.'' The report also posits the fear that 
giving arms to countries with active armed conflicts will exacerbate 
the conflict.
    An internal security plan, code named Oplan Bantay Laya (OBL or 
Operation Freedom Watch), viewed as patterned after the Phoenix Program 
in Vietnam in the 1960s, was created in early 2002. The OBL was 
approved by Arroyo's Cabinet Oversight Committee for Internal Security 
(COCIS) and became a blueprint of the Armed Forces of the Philippines 
(AFP) and the Philippine National Police (PNP).
    Although OBL purportedly aims to crush decisively the three-decade 
old Communist rebellion, it highlights the ``neutralization'' of what 
the Philippine authorities call ``front organizations,'' leaders and 
members as ``enemies of the state.'' In effect, the new antiterrorist-
insurgent campaign makes no distinction between armed guerillas and 
unarmed activists, making the latter fair targets of political 
assassinations and abductions by suspected state-organized death 
squads.
    The executive policy that is merged with the aforementioned 
military strategy had also taken the form of restrictions on civil and 
political rights, specifically through the Calibrated Preemptive 
Response (CPR) issued on September 21, 2005, the anniversary of Marcos' 
martial law, and Presidential Proclamation 1017 that placed the 
Philippines under a state of emergency on February 24, 2006, after 
which arbitrary arrests and illegal detention particularly in the 
cities became prevalent. Several arrests have been made including that 
of Representative Crispin Beltran, a labor leader and representative in 
the House of Representatives from the Anakpawis (toiling masses) party 
list. Five other members of progressive party-list groups Bayan Muna 
(people first), Gabriela (women's group) and Anakpawis were able to 
protect their liberty but are now facing what they and their lawyers 
say are illegal arrests on false charges.
    In the 6 years of the Arroyo Presidency, democracy and human rights 
continue to deteriorate in the Philippines. A total of 836 victims of 
extrajudicial killings has been recorded and documented since 2001 when 
she came to power. Three hundred fifty-seven more were documented to 
have survived attacks on their lives. At least 196 other persons have 
been documented to have been abducted and remain missing to this day. 
Scores have been tortured while thousands have been displaced and 
harassed, hundreds have experienced physical assault in the course of 
military operations or while exercising their rights to assembly and 
free speech. The National Union of Journalists of the Philippines 
(NUJP) recorded 47 journalists killed in the course of their work 
during the same period.
    The killings have victimized Filipinos coming from a wide range of 
sectors--farmers, workers, indigenous peoples, Moro people, lawyers, 
church people, human rights workers, youth activists, women and members 
of progressive groups, especially the new parties that were able to 
seat representatives in Congress. Twenty seven KARAPATAN human rights 
workers and leaders were killed from 2001 up to the present.
    The killings continue to be committed with impunity far surpassing 
that of the Marcos dictatorship. As a survivor of Marcos' martial law, 
I can say that the dictator was able to violate our rights because he 
declared martial law. Under Mrs. Arroyo, a virtual martial atmosphere 
is obtaining in the country without the formal declaration, under a 
supposed democratic society. Gross and systematic violations of human 
rights happen in the country now with such impunity that the victims 
are left with no recourse or redress from the institutions in the 
country.
    A case in point is that of the case of my colleague, Eden 
Marcellana, secretary general of KARAPATAN-Southern Tagalog and Eddie 
Gumanoy, a farmer leader who was with her in an 11-member fact-finding 
team.
    From 19 to 21 April 2003, Marcellana, a staunch and vocal oppositor 
to various military atrocities in Mindoro Island and elsewhere, 
together with Eddie Gumanoy, chair of the peasant organization KASAMA-
TK, led a group of human rights volunteers in a Fact-Finding Mission 
(FFM)--Quick Reaction/Response Team (QRT) in Mindoro Oriental, 
Philippines, to verify and document reports of human rights violations 
committed reportedly by then-Col. Jovito Palparan and elements of his 
204th Infantry Brigade. On their way back from the mission, about a 
mere 5.5 kilometers from the military camp, the vehicle which they were 
riding in was stopped and commandeered by armed men. The dead bullet-
ridden bodies of Marcellana and Gumanoy were found near each other in 
another town in the morning of 22 April 2003.
    Due to widespread calls and public criticism, President Gloria 
Macapagal-Arroyo was for the first time forced to form a task force 
from the Department of Justice (DOJ) to look into the subject 
kidnappings and murders. The task force recommended the filing of 
charges against a sergeant working directly under Col. Palparan and 
several rebel returnees under the latter's control. In the meantime, 
the sergeant was arrested for an unrelated charge of robbery but was 
able to post bail at once.
    But the DOJ Panel of Prosecutors recommended the dismissal of the 
charges of arbitrary detention, murder, and robbery against the 
respondents despite the independent, credible, and positive 
identification by four survivors-witnesses and other overwhelming 
evidence. The Chief State Prosecutor dismissed the case accordingly on 
17 December 2004.
    Prior to such dismissal, congressional investigations were held 
before the House of Representatives and the Senate in May 2003. The 
House Committee on Civil, Political and Human Rights in its report 
called for a further probe and the temporary relief of then-Colonel 
Palparan while the investigation was ongoing. The Senate Committee on 
Justice and Human Rights, after conducting an initial hearing, 
suspended its inquiry due to the ongoing preliminary investigation 
before the DOJ.
    Almost contemporaneously, Colonel Palparan's promotion to brigadier 
general and then to major general was eventually confirmed by the 
congressional Commission on Appointments despite various oppositions 
from different sectors. While the case was still pending preliminary 
investigation before the DOJ, General Palparan was quietly sent to Iraq 
in early 2004 to head the Philippine mission in the U.S. invasion and 
occupation.
    Separate hearings before the national Commission of Human Rights 
(CHR) were also heard. But after submitting testimonial and documentary 
evidence in support of their charge of human rights violations, the 
victims and their heirs were compelled to withdraw from the CHR 
hearings because they sincerely believed at that point and under the 
circumstances then that they cannot get justice, that the hearing was 
to be used to clear Colonel Palparan and remove obstacles to his 
pending promotion to major general, and in view of another high profile 
extrajudicial execution in Mindoro of an activist lawyer and of 
Marcellana's successor. Nonetheless, the CHR issued a resolution 
castigating Colonel Palparan for his responsibility and inaction for 
various violations in his area of responsibility.
    A separate complaint for violation of the Comprehensive Agreement 
on Respect for Human Rights and International Humanitarian Law 
(CARHIRHL) was filed before the Joint Monitoring Committee (JMC) of the 
Government of the Republic of the Philippines (GRP) and the National 
Democratic Front of the Philippines (NDFP) on 4 June 2004. The JMC has 
not yet acted on the complaint as the GRP has refused to convene with 
its counterpart after having met previously only twice in April 2004.
    The victims and their heirs filed a Petition for Review/Appeal of 
the DOJ Panel dismissal on 22 February 2005 before the present Justice 
Secretary.
    While the said Petition for Review/Appeal remained unresolved 
despite several efforts to follow it up or calls to resolve the same, 
the victims and the heirs participated in two nongovernmental people's 
tribunals to submit their testimonial and documentary evidence for the 
killing, namely: The International People's Tribunal (IPT) of the 
International Solidarity Mission (ISM) on August 2005 and the Citizen's 
Congress for Truth and Accountability (CCTA) on November 2005. In the 
IPT, General Palparan and his military were particularly adjudged 
guilty of crimes against humanity and the extrajudicial killing of 
Marcellana and Gumanoy, among others.
    The victims and their heirs were also compelled to file a specific 
complaint on 16 March 2006 before the United Nations Human Rights 
Committee (UNHRC) in New York against the Philippine Government for 
violation of the International Covenant on Civil and Political Rights 
(ICCPR) under its Optional Protocol. The complaint remains outstanding.
    In the meantime, there were reports that the sergeant implicated in 
the case was also sent to Haiti as part of the Philippine mission to 
the U.N. peacekeeping forces.
    Earlier, on October 2003, representatives of the victims and the 
heirs brought the case to the attention of the UNHRC in Geneva during 
its 79th session. In that session, then acting Justice Secretary 
Merceditas Gutierrez (now Ombudsman) openly claimed before the UNHRC 
that the case had already been filed in court when in fact it was still 
at the preliminary investigation before the DOJ at that time.
    The present Justice Secretary eventually approved the dismissal of 
the charges by the DOJ Panel and denied the Petition for Review/Appeal 
of the victims and heirs only after almost 2 long and agonizing years 
on 20 November 2006 through a minute perfunctory resolution. The 
victims and the heirs filed a Motion for Reconsideration on 7 December 
2006 while the respondents filed their Comment on 22 December 2006. The 
incident is still pending.
    From the above, this case is emblematic of the search for justice 
of human rights violations victims as it is clear that they and their 
heirs have tried practically every available legal remedy to seek 
justice not only before the domestic fora but even in the international 
arena. It is also clear that the acts of different agencies and 
branches of the Philippine Government have individually and 
collectively engendered the impunity for this and other human rights 
violations.
    From 2005 until August 2006, several separate and independent 
international peace and solidarity fact-finding missions were conducted 
in the Philippines by eminent human rights advocates and organizations. 
Members of these missions expressed dismay and alarm over the gross and 
systematic violations of human rights after finding out for themselves 
the magnitude of the violations and worse, the apparent failure of 
government authorities to address the problem or at least rein in the 
Philippine military, police, and paramilitary forces.
    In August 2005, 86 delegates from 18 countries came to the 
Philippines in an International Solidarity Mission (ISM) to look into 
reported cases of human rights violations. Evidence gathered and 
witnesses interviewed during the mission were presented before an 
International People's Tribunal (IPT) on August 19, 2005. The tribunal 
was presided by Nobel Peace Prize Nominee Dr. Irene Fernandez 
(Malaysia), civil liberties lawyer Prof. Lennox Hinds (USA) and human 
rights lawyer Hakan Karakus (Turkey) with a College of Jurors. Among 
others, the IPT found the Arroyo government guilty of human rights 
violations.
    Alarmed by reports that lawyers and judges are also being killed or 
threatened, an independent delegation of two judges and six lawyers 
from The Netherlands and Belgium belonging to the Dutch Lawyers for 
Lawyers Foundation, Dutch Lawyers Without Borders, joined by the 
International Association of Democratic Lawyers (IADL), came to the 
Philippines for an International Fact Finding Mission on Attacks 
against Filipino Lawyers and Judges and investigated the violence 
committed against their Philippine colleagues in June 2006. Completing 
their mission, the group concluded that many lawyers and judges in the 
Philippines have been threatened and killed, especially since the 
beginning of 2005 and a remarkable number of these lawyers and judges 
have been involved in human rights-related cases confirming likewise 
that some authorities tagged many of the victims as ``enemies of the 
state'' that made them vulnerable to political assassinations.
    In August 2006, the 68-member International Peasant Solidarity 
Mission (IPSM), composed of 16 foreign participants from nongovernment 
and people's organizations in the United States, Belgium, Canada, The 
Netherlands, Japan, and Nepal, found that there were clear indications 
of the military's culpability, in particular the notorious Maj. Gen. 
Jovito Palparan, Jr., in most cases of extrajudicial killings of 
leftist activists.
    Furthermore, religious denominations from different countries also 
voiced their alarm. The United Church of Australia, the third largest 
Christian denomination in Australia, released a report in Canberra on 
its inquiry into the deaths over the last 2 years of 14 clergy and 
members of the United Church of Christ in the Philippines.
    In August last year, the Hong Kong Christian Institute (HKCI) 
likewise expressed its deep concern over the increasing number of 
political killings and human rights violations in the Philippines and 
urged the Arroyo government to take stronger action to address this 
issue and prevent further killings from taking place. Similarly, the 
Methodist Church in the United States as well as different groups from 
Canada led by the British Columbia Committee for Human Rights in the 
Philippines (BCCHRP) also voiced their concern.
    Earlier, similar concerns were expressed by the World Council of 
Churches, the National Council of Churches in the Philippines and the 
Asian Human Rights Commission (AHRC), among many other institutions. 
The Inter-Parliamentary Union, an international assembly of 
parliamentarians, as well as the International Association of People's 
Lawyers (IAPL) and prominent lawyers' groups in the United States, 
Europe and even Africa, have voiced the same alarm.
    Even representatives from embassies of a number of countries have 
also expressed their condemnation of the extrajudicial killings, 
abductions, and enforced disappearances in the Philippines.
    In a comprehensive report it released in August 2006, the London-
based Nobel Peace Prize winner, Amnesty International, stated in no 
uncertain terms that ``the methodology of the attacks, including prior 
death threats and patterns of surveillance by persons reportedly linked 
to the security forces, the leftist profile of the victims and climate 
of impunity which, in practice, shields the perpetrators from 
prosecution, has led Amnesty International to conclude that the attacks 
are not an unconnected series of criminal murders but constitute 
apolitically motivated pattern of killings. The organization remains 
gravely concerned that members of the security forces may have been 
directly involved in the killings, or else have tolerated, acquiesced 
to, or been complicit in them.''
    Because of mounting and widespread criticisms on the extrajudicial 
killings, the President was compelled to order the police to look into 
these cases and solve them as soon as possible. Thus, the Philippine 
National Police formed the Task Force Usig. However, the head of the 
Task Force immediately announced that the perpetrators of the killings 
are the Communists or the rebels themselves because of an ``internal 
purge'' within the Communist movement.
    Amidst even greater pressure on both the national and international 
leaders, President Arroyo also formed the Melo Commission on August 21, 
2006, which she said she empowered to make independent investigations 
into the killings. This was declared amidst calls for an independent 
investigative body that would look into these cases. But human rights 
organizations, as well as victims' relatives, simply did not have trust 
in this commission and thus did not participate in its hearings. The 
President did not consult the victims or the human rights organizations 
on the composition of the commission, the members of which she 
handpicked and thus, was perceived as not the independent body that 
will look into the cases.
    In September 2006, the President went to Europe and facing 
international protest actions, invited European nationals to go to the 
country to look into these killings as the European Union called on her 
to resolve the cases.
    Criticisms continued to hound the Arroyo administration as the 
killings of leaders and key members of progressive people's 
organizations went on. Because of pressure, the administration was 
forced to formally invite the U.N. Special Rapporteur on Extrajudicial, 
Summary of Arbitrary Executions, Mr. Phillip Alston, to visit the 
Philippines in February of this year.
    After a 10-day visit and a series of meetings between nongovernment 
organizations, government offices as well as witnesses and relatives of 
victims, Mr. Alston said that, ``The AFP (Armed Forces of the 
Philippines) remains in a state of almost total denial (as its official 
response to the Melo Report amply demonstrates) of its need to respond 
effectively and authentically to the significant number of killings 
which have been convincing attributed to them. The President needs to 
persuade the military that its reputation and effectiveness will be 
considerably enhanced, rather than undermined, by acknowledging the 
facts and taking genuine steps to investigate. When the Chief of the 
AFP contents himself with telephoning Major General Palparan three 
times in order to satisfy himself that the persistent and extensive 
allegations against the general were entirely unfounded, rather than 
launching a thorough internal investigation, it is clear that there is 
still a very long way to go.''
    He further went on to say, ``The increase in extrajudicial 
executions in recent years is attributable, at least in part, to a 
shift in counterinsurgency strategy that occurred in some areas, 
reflecting the considerable regional variation in the strategies 
employed, especially with respect to the civilian population. In some 
areas, an appeal to hearts and minds is combined with an attempt to 
vilify left-leaning organizations and to intimidate leaders of such 
organizations. In some instances, such intimidation escalates into 
extrajudicial execution. This is a grave and serious problem . . .''
    Mr. Alston's visit also paved the way for the public release of the 
report of the Melo Commission, which was initially not made public by 
the government despite public clamor from different camps. However, 
after a scathing statement from the U.N. Special Rapporteur, the 
President was forced to order the release of the report to the public. 
In spite of the fact that the Melo Commission based its findings on 
documents that came mostly from the police that are themselves widely 
believed to be complicit, the Melo report still says that extrajudicial 
killings are going on in the country and ``rogue elements'' in the 
military may ``have a hand'' on these killings.
    But the killings are going on with such a brazen impunity and 
unless stopped, will continue to erode the foundations of a democratic 
society and rule of law in a supposed democratic Philippines. Recently, 
the Chief of Staff has announced the continuation of the Oplan Bantay 
Laya II with the deployment of military troops in urban slum areas 
where progressive party lists gained high number of votes in the 2004 
elections. Terror grips these communities and we fear a further 
escalation of killings and violence in the runup to the 2007 elections 
in May. Just recently, the government has finally issued a warrant of 
arrest on the basis of trumped up charges to one of the progressive 
party-list candidates. Harassments and surveillance on our offices are 
getting to be frequent.
    Thus, unless the extrajudicial killings are ordered stopped by our 
President, as commander in chief, who has supervision and effective 
control of the armed forces, there will be no letup in these human 
rights violations. And unless adherence to basic due process, 
democratic principles, civilian supremacy over the military and 
elementary principles of international humanitarian law that 
distinguishes combatants and civilians are faithfully done by the 
Arroyo government, the killings will continue.
    And it is at this juncture that even more effective international 
moral and other pressure be brought to bear upon the Philippine 
Government especially that the brutal and unmitigated killings, 
disappearances, torture, harassment, and persecution of its citizens 
still haunt the Filipino people with unbridled impunity despite the 
wide array and breadth of national and international criticism and 
condemnation.

    Senator Boxer. Thank you. You've been excellent panel.
    Here's how we're going to proceed. I can stay here until 
about 5 to 4. Senator Webb will stay here as long as he would 
like to, to do his questions. And so, let me just start off by 
thanking, thanking you very much for adding to our body of 
knowledge on this.
    And I'd like to ask unanimous consent to place into the 
record a summary of the Alston Report, the Alston Report that--
he's the Special Rapporteur of the U.N. Human Rights Council 
and Extrajudicial Summary or Arbitrary Executions, without 
objection.
    I think this document is a very fair document, and I think 
that it points out what has to happen.
    Now, both Senator Webb and I have stated and cited this 
very special relationship we have with the Philippines, and how 
much we treasure that friendship. And, if I might say, I think 
this is a very important turning point for the government, and 
for the people. Because as Mr. Alston says, the Philippines 
remains an example to all of us--these are his words--in terms 
of the peaceful ending of martial law by the People's 
Revolution and the adoption of a constitution reflecting a 
powerful commitment to ensure respect for human rights.
    And again, I was there in 1986. The spirit of that day and 
that time will never leave me. And it is with a heavy heart 
that I see some of the things that are happening now.
    I think that Mr. Alston puts the response of the Government 
into context. He says, ``There's been some important first 
steps, but there's a huge amount that needs to be done.'' And 
as long as I have this gavel, I hope I can use it in a way to 
shine the spotlight on what's going on, and to make sure that 
this critical juncture--the government moves in the best 
direction, in the most democratic direction--rather than in the 
other direction. Because that would be a very sad time, indeed, 
for the people in the Philippines, and for all of us who really 
care about the Philippines.
    So, we're placing this in the record, because you know, 
everyone ought to read it--it's a very important document that 
raises the critical issues, and the problems.
    Now, I want to share with Senator Webb, and some of you, 
something that happened as we were setting this particular 
hearing up. And, I mention it, because I believe that the truth 
is important to talk about.
    Now, we all followed the press in the Philippines when we 
decided to have this hearing. And, I say to my colleagues, we 
had a statement issued that there were going to be people here 
from the government, which is fine with us, this is a place for 
everyone to come. But, it was specifically stated that the 
people they were going to send were going to be police and 
military, to this hearing.
    Now, I don't understand, why you would have to send 
military and police to a hearing that a couple of Senators are 
holding to look at human rights and allegations of human rights 
abuses. And, we made it very clear--and to their credit, they 
responded, ``OK, we won't send any military, we won't send any 
police,'' and they added, ``we won't send any intelligence 
officials.'' [Laughter.]
    But, if you're here today, I don't know who you may be, we 
welcome you. But we don't need to have military and police and 
intelligence officials at an open hearing where there'll be a 
public discussion and a public record.
    So, I think the need to have more collaboration, and I 
see--I'm so pleased that our State Department is still here--
this is a pretty basic point, that we don't try to intimidate 
witnesses at an open hearing. People from the church; people 
from the human rights community--that's the wrong signal to 
send this committee.
    And, I mention it because, again, I think it's almost maybe 
a lack of understanding here about how we should proceed. And 
the good news is, there's so many good people both in this 
country, and the State Department, and the human rights 
organizations, and also leaders in the Philippines who 
understand what a true democracy is. And, the fact is, of 
course we have dissent--my God, you should see some of the 
arguments we get into here. We all see the world slightly 
different from what, each other. But the beauty of a free 
democracy is that you respect the other person's views. And you 
battle it out in the court of public opinion, and on the floor 
of the Senate, and the votes that are taken, and you don't come 
after your adversaries in a way that intimidates them, or 
subjects them to fear, and worse.
    So, I just have a couple of questions, I want to ask one to 
Mr. Martin, because Mr. Martin, you made a prediction here, 
which was very disturbing to me. You told us that there was 
kind of a signal sent that there may well be more violence 
around the election. And, I want you to tell me, when is the 
election, and one more time, if you can say--what was this sort 
of signal that you've heard, and who was it from?
    Mr. Martin. Thank you, Senator.
    The election is scheduled for May 14. These are national 
elections; campaigning has already begun.
    The quote I gave you was from National Security Advisor 
Norberto Gonzalez, who stated on March 8, that such candidates 
must not be allowed to win seats in the Congress. His view is 
that party list candidates, i.e., those who run as party 
members, are ``under the direct influence of the Communist 
Party.'' I think this gives a very powerful message to people 
who may feel that they should be stopped from winning the 
election.
    Senator Boxer. And you predicted violence around the 
elections.
    Mr. Martin. Unfortunately, Philippine elections are often 
accompanied by violence; yes, Ma'am.
    Senator Boxer. Do you think it would help to send in some 
international observers for a period of time, starting as soon 
as possible, through the election period?
    Mr. Martin. I should let my State Department colleagues 
answer that. My understanding is that Embassy officers will be 
monitoring the elections in various parts of the country. I 
understand, also, this morning, that the Carter Center has been 
approached--whether or not they've decided, I don't know.
    Senator Boxer. OK.
    And, I would say, Bishop, I found your testimony to be 
pretty compelling, and I'm asking you if you could repeat for 
the record, your three recommendations at the end of your 
testimony. Could you repeat those? The three recommendations 
you made? For the government?
    Bishop Pascua. In the light of the realities of the 
extrajudicial killings, we propose that this committee ask the 
Philippine Government immediately stop the extrajudicial 
killings, and other forms of human rights violations, and 
including the revocation of all hit lists that target church 
people, farmers, workers, party-list members and leaders, human 
rights defenders, community organizers, activists, indigenous 
people, moral people, national minorities, women, lawyers, 
members of the press, and other civilians, most of whom are 
suspected or labeled by Philippine authorities as alleged 
Communist sympathizers, or affiliated with Communist-front 
organizations.
    No. 2, ask the Philippine Government to take effective 
measures to bring to justice members of the Security Forces and 
their agents, against whom there is credible evidence of human 
rights violations, including immediately suspending those 
persons and former members who have been credibly alleged to be 
responsible for gross violations of human rights, and 
investigating, prosecuting, and punishing them.
    And, No. 3, call upon the Philippine Government to comply 
with its obligations under international law, and receive its 
national security policy under its current counterinsurgency, 
and counterterrorism campaign, which has the effect of 
legitimizing and encouraging the killing of innocent civilians. 
And this includes making no distinction between combatants, and 
noncombatants, as well as labeling and falsely accusing critics 
of Philippine Government's policies, or those who advocate for 
human rights, as being enemies of the State.
    Senator Boxer. I wanted to thank you, because I thought you 
just really honed in on the problem.
    I'm going to turn it over to Senator Webb, but I wanted to 
note that Senator Lugar has repeatedly asked the Philippine 
Government to investigate the incidents of journalists being 
killed--you mentioned journalists, Reporters Without Borders 
2007 report said that at least 6 journalists were reportedly 
killed in the Philippines in 2006. The report states that 
authorities have failed to stem the wave of violence against 
journalists, and then, according to some estimates, 50 
journalists have been killed since 2001.
    And, critics of the Philippine Government have complained 
that in many cases, the personalities had exposed local 
government corruption or human rights abuses, and that police 
beholden to local elites did not perform a proper 
investigation.
    So, let me just say, in turning it over to my colleague to 
go as long as he would like, and ask as many questions to 
complete this record--that I'm very appreciative to you for 
coming out here today--all four of you.
    And again, I know, because I can get a sense of it--that 
this isn't easy for you to do. But you know, when you shine 
light on an issue, and you come out of your fear, and you're 
out there, that--I think--is the best antidote to these kinds 
of problems. We have to step out and give a face to these 
issues.
    And again, I will do everything I can to make sure that the 
Government of the Philippines fulfills the hopes and dreams of 
the people there, in a way that we all can move forward, with 
prosperity, and security and yes, we're in it, on the war 
against terror--I cited the fact that I had lost a constituent 
who was beheaded by the Abu Sayyaf, and we all--we all want to 
work to stop terror, in its tracks. We don't, however, want to 
use it as an excuse to do bad things to people who don't 
deserve this kind of treatment.
    And again, we're going to have our differences, in America, 
we're going to have our differences, in the Philippines between 
people, but we don't resolve it with violence and killing, and 
fear and intimidation.
    I again, want to thank the State Department representative 
for staying, it means a lot to me that you did. We will 
continue to work together on this committee, we will be 
following up with some letters, after we go through the 
testimony, very--line by line--and again, I want to thank you, 
and I want to thank my good colleague for coming over here 
today and completing the hearing, and I will turn the gavel 
over to you, so you are now the chairman.
    Senator Webb [presiding]. Thank you, Madame Chairman.
    I'd like to echo the chairman's comments, in terms of 
expressing my appreciation for your testimony today. This is an 
issue that I am coming in on without having dealt with it, 
obviously, in a previous Congress. I just assumed the mantle of 
serving in the Senate, but as I said, I do have a good bit of 
time in Asia over my adult lifetime, and some of that time has 
been spent in the Philippines.
    I'm quite aware of the potential for violence, quite 
frankly, in Philippine society. You can't drive down the street 
in a place like Manila without seeing some security guard 
standing outside of a bank somewhere with an M-16. And I know 
that is, you know, it's an easy thing for violence to occur, 
below the water line in societies like that. I guess the 
reality that we're dealing with here.
    I have four or five questions that may be appropriate to 
the State Department witnesses as much as to the panel here, 
but for the record, I think for the benefit of the committee as 
we analyze this issue, and I'm pledging to you that we will, my 
staff, we're going to look at this information and the 
recommendations that were given, and see where we could assist 
in the resolving the problem, if appropriate.
    But, I'd like to start with some fairly basic questions 
about the facts, I think we can't really solve problems unless 
we know what the facts really are, and the first question I 
have is--how we have arrived at these figures, the 836 figure, 
in one of the reports it was listed as between 136 and 800--but 
how exactly have we determined that there were this number of 
people who were assassinated?
    Ms. Hilao-Enriquez. Yes; thank you, sir.
    My organization, as I said, has 15 regional centers, and 
our documentation is such that we have workers in the field and 
the 836 that we have documented, includes--a majority of this 
includes farmers in the areas that have been deployed with 
military troops. But these farmers are civilians. And, in some 
cases, when military operations occur, some of the troops vent 
their ire on these civilians.
    I understand that there has been a report from the 
Philippine National Police saying that the number is lower, and 
I think they have a different category, in fact they have 
recategorized the killings, and telling our group that some of 
the cases that we documented are victims of legitimate 
encounters.
    But, in our investigation, many of these alleged--the 
alleged victims of legitimate encounters, are not victims of 
legitimate encounters, but victims of military troops directly 
shooting them.
    Senator Webb. But, you could say that a percentage of that 
836 would be attributable to the excessive use of military 
force, rather than politically targeting someone. Would that be 
fair?
    Ms. Hilao-Enriquez. I would say that these are the result 
of counterinsurgency operations by military forces, and for us, 
we also consider these as extrajudicial killings.
    Senator Webb. But, in terms of trying--for us, trying to 
understand the political nature, as opposed to reckless 
behavior, or soldiers in an area unjustifiably taking out their 
anger. There would be a percentage of these that were killed as 
a result of inappropriate behavior by soldiers in an area, as 
opposed to targeted political killings. Would that be--is that 
fair to say?
    Ms. Hilao-Enriquez. As I said, in our documentation, we 
consider these cases as not only as simple--what's this--
behavioral problem on the soldiers, but because they are 
related to counterinsurgency operations, we consider these as 
extrajudicial killings, especially that State Security Forces 
are involved in such cases. Under our Constitution, State 
Security Forces should protect the people and----
    Senator Webb. Right.
    Ms. Hilao-Enriquez [continuing]. Our citizens' rights.
    Senator Webb. Do you know the percentage of the 836 that 
were killed as a result of military activities like that? 
Farmers, you know, the soldiers--shooting people? Like, in the 
fields, that sort of thing you're talking about?
    Ms. Hilao-Enriquez. I would say that in many of these 
instances--because it's around half of the 836 we consider the 
victims as civilians being killed by the military during 
counterinsurgency operations. Like, if I can just illustrate my 
point.
    There was this group of farmers in Palo Leyte, and they 
were conducting farming activities in the area early one 
morning, in November 2005, and then the soldiers came and just 
shoot at them, and so seven of the farmers were killed.
    But then, the victims were portrayed as rebels, and the 
military said that they were New People's Army. So, this was 
the report given by the military. But, when we went to the area 
and investigated, they were ordinary farmers, with no arms.
    Senator Webb. You say geographically, what would be the 
breakdown of these killings, between, say, Luzon, Mindanao, and 
other areas?
    Ms. Hilao-Enriquez. The highest number that has registered 
in our documentation is southern Tagalog Region. These are the 
areas south of Manila, and then next would be central Luzon, 
north of Manila, and then next would be the Bicol Region, and 
eastern Visayas and southern Mindanao.
    Senator Webb. What--do you know--could you tell us what 
percentage are religious figures?
    Ms. Hilao-Enriquez. Pardon?
    Senator Webb. How many are religious figures? People who 
are in the church, serving in the church?
    Bishop Pascua. In our accounting, there are already 26 
religious people--clergy and lay persons who are working with 
the church. And out of that, 16 belong to the United Church of 
Christ in the Philippines. Other churches who have offered 
their members and church workers are United Methodist Church, 
the Philippine Independent Church, where Bishop Romento 
belonged, and that is a born-again Christian church. And the 
Roman Catholics for those lay persons who are working in the 
community-based programs.
    Senator Webb. And how many are media? How many have been 
media figures? Reporters? Journalists?
    Ms. Hilao-Enriquez. Well, from our information, coming from 
the National Union of Journalists in the Philippines, I think 
the figure now comes to 49 since President Arroyo came to 
power.
    Senator Webb. Are you comfortable with the newly created 
office, the Human Rights Office, of the Armed Forces of the 
Philippines? The activities that they're engaging in? This is 
for the panel.
    Ms. Hilao-Enriquez. I am not very comfortable with that. I 
think it's not only a newly created office, before they have 
already a certain section in the military they call a human 
rights desk, or office. And, because in the years past, we had 
dialogs with them, and what they do is just to receive the 
complaints, and then write us and say that, ``We will look into 
the complaint,'' and then nothing has been heard from them.
    I don't know, now, if this office will perform in the same 
manner that it performed in the past, but I'm not very 
confident--especially since that--they have been--even after 
the Melo Report and the Alston Press Statement came out, the 
military maintains that the rebel forces are the ones 
committing these killings.
    Senator Webb. Are any of you aware of any precedent in 
Philippines' history where government officials have been held 
accountable when civilians have been killed for political 
reasons, other than deposing President Marcos. But, I mean, in 
a general sense. Are you aware of any point in the Philippines' 
history where government officials who have engaged in this 
kind of conduct have been held accountable?
    Ms. Hilao-Enriquez. Not to my mind, sir. As I said, I am a 
survivor of martial law.
    Senator Webb. Right.
    Ms. Hilao-Enriquez. I cannot recall----
    Senator Webb. Does any of the other panel know of any time 
in the history of the Philippines that people have been held 
accountable for this kind of conduct?
    [No response.]
    Senator Webb. All right.
    This has been helpful, I think, as I've said before, these 
kinds of issues are best addressed first by developing the 
right kind of factual information so that we can evaluate and 
make policy decisions. And, I can tell you that the questions 
that I just asked you have been very helpful to me.
    With that, I thank you again, for your testimony, I thank 
all of you for being here, and this hearing will be closed.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. Willy C. Gaa, Philippine Ambassador to the 
                             United States

    We welcome the initiative of the U.S. Senate's Subcommittee on East 
Asian and Pacific Affairs conducting a hearing on the issue of 
unexplained killings in the Philippines which the Philippine Government 
is addressing with resolve.
    The Senate move is a positive step that will shed more light into 
this complex issue. It provides a vital forum for constructive dialog 
among all concerned parties and opens a new avenue for us to work 
together in promoting human rights and in upholding the rule of law.
    President Gloria Arroyo's decision to extend the mandate of the 
Melo Commission--its recommendations have been fully adopted by the 
government--and her invitation for U.N. Special Rapporteur Philip 
Alston to conduct his own fact-finding mission in the Philippines, have 
yielded encouraging results.
    It is our hope that militant groups and relatives of the victims 
will now be more willing to cooperate with the Melo Commission, in 
response to the swift action by the Philippine Government on the 
panel's recommendations. Karapatan, a representative of which has been 
invited to speak before this Senate subcommittee, had questioned the 
Commission's independence even before the panel could even start its 
fact-finding work and had subsequently ignored its repeated invitations 
to participate in the investigations.
    The U.N. Special Rapporteur himself had assessed that the 
Commission had conducted an independent probe, and had cited the 
sincerity of the Philippine Government in addressing and finding 
solutions to this problem of unexplained killings.
    There have been allegations that Philippine military personnel are 
involved in these killings despite the fact that no charges against 
particular military men have been filed by the accusing parties.
    The Melo Report itself states: ``From the evidence gathered, and 
after an extensive study of the same, the Commission comes to the 
conclusion that there is no direct evidence, but only circumstantial 
evidence, linking some elements in the military to the killings. There 
is no official or sanctioned policy on the part of the military or its 
civilian superiors to resort to what other countries euphemistically 
call `alternative procedures'--meaning illegal liquidations.''
    It further states: ``While state responsibility is possible for 
private acts, there is no basis to hold liable the entire military 
leadership or even the entire leadership of one of its branches, under 
the doctrine of command responsibility. The findings herein do not 
justify a ruling that each and every high-ranking officer in the 
military, or the institution itself, should be held liable for the 
killings.''
    Nonetheless, President Arroyo issued an instruction on 31 January 
2007 to the Department of Justice and the Department of National 
Defense directing them to coordinate with the Commission on Human 
Rights (CHR) in constituting a joint fact-finding body. Its task is to 
``delve deeper into the matter of possible involvement of military 
personnel in unexplained killings, filing the corresponding charges 
against, and prosecute the culpable parties.''
    The CHR is an independent body created by virtue of our 1987 
Constitution. President Arroyo has recently allocated an additional 
funding of 25 million pesos to the CHR so that it can best carry out 
its mandate to check reported human rights violations.
    The Armed Forces of the Philippines (AFP) also deemed it imperative 
to issue on 4 February 2007 a directive to all levels of command 
underscoring strict adherence to the doctrine of command 
responsibility.
    Under this doctrine, ``any AFP officer shall be held accountable 
for neglect of duty under the doctrine of command responsibility if he 
has knowledge that a crime or offense shall be committed, is being 
committed, or has been committed by his subordinates, or by others 
within his area of responsibility and despite such knowledge, he did 
not take preventive or corrective action either before, during, or 
immediately after its commission.''
    The same directive incorporates the principle of ``presumption of 
knowledge'' by a commanding officer of ``the Commission of 
irregularities or criminal offenses within his area of responsibility 
in any of the following circumstances: (a) When the irregularities or 
illegal acts are widespread within his area of jurisdiction; (b) when 
the irregularities or illegal acts have been repeatedly or regularly 
committed within his area of responsibility; or (c) when members of his 
immediate staff or office personnel are involved.''
    Commanders of erring military personnel found in violation of this 
directive ``shall be held accountable either for violation of the 
Article of War 95 or as an accessory after the fact upon deliberate 
refusal or failure or neglect to act accordingly and decisively as 
requited by existing AFP laws.''
    On 13 February 2007, the General Headquarters of the AFP released a 
Staff Memorandum delineating the functions and organization of the AFP 
Human Rights Office (AFPHRO). Among its specific functions is ``to 
plan, implement and supervise programs, measures and mechanisms'' to 
protect and promote respect for human rights and adherence to 
international human rights laws, and to monitor the litigation of cases 
against the AFP.
    At present, 94 cases of alleged political killings ``where 
(Philippine) security forces are probably involved'' are now being 
investigated by the newly created AFP Human Rights Office. These 94 
cases are among the 240 and 113 cases that the Melo Commission and the 
Department of Interior and local government-created Task Force Usig, 
respectively, recommended for investigation. The cases indicate the 
names, incidents and circumstances pointing to the probable involvement 
of security forces.
    On 31 January 2007, President Arroyo requested the Supreme Court 
(SC) to establish special courts for the expeditious trial of cases 
involving unexplained killings of a political or ideological nature. 
The Supreme Court has already designated 99 regional trial courts as 
special tribunals with the order for these courts to resolve the cases 
at the soonest.
    To strengthen the Department of Justice's (DOJ) Witness Protection 
Program, the DOJ liberalized the admission requirements for witness 
protection coverage, particularly when the threat level on bona fide 
witnesses to alleged media and politically motivated killings is high. 
Regional state prosecutors have also been authorized to grant 
provisional coverage to high-risk witnesses under threat pending 
confirmation of their admission to the program. The economic benefits 
and social services for witnesses under the program have also been 
enhanced.
    Within a long-term framework, the AFP has been implementing the 
Philippine Defense Reform Program (PDRP). It is the product of the 
Joint Philippines-United States Joint Defense Assessment (JDA) that was 
completed in 2003. Its aims include, among others, the reform and 
professionalization of the military.
    A similar reform-oriented management assessment--a joint 
undertaking of the U.S. Government and the Philippine National Police 
(PNP)--is being conducted under the auspice's of the United Nations 
Development Program (UNDP).
    Given the aforementioned efforts, we wish to take strong exception 
to related allegations being raised by some quarters that U.S. 
assistance, particularly military logistical equipment, are being 
misused by Philippine security forces as instruments for human rights 
violations and in conducting these political killings.
    The Joint U.S. Military Assistance Group (JUSMAG) serves as a 
strong oversight mechanism which strictly inventories and monitors the 
use of U.S.-provided military equipment. The AFP must even secure its 
prior approval before it could dispose of equipment which have already 
been rendered unusable.
    U.S. military assistance is vital to the AFP's counterterrorism 
campaign which we are winning, particularly resulting to the recent 
killing of the top two leaders of the Abu Sayyaf Group (ASG). The ASG 
was responsible for the hostage-taking of the American couple Martin 
and Gracia Burnham and the beheading of another American, Guillermo 
Sobero. The Philippine Government has also made headways in its 
campaign against the New People's Army (NPA), the armed wing of the 
Communist Party of the Philippines (CPP), which had assassinated JUSMAG 
Chief Col. James Rowe, among its terroristic acts. The CPP-NPA is 
presently included in the State Department's list of Foreign Terrorist 
Organizations (FTOs).
    The reason for our government's success rests on the fact that our 
counterterrorism strategy is a wholistic one, with both military and 
socioeconomic components. The Philippine Government fully recognizes 
that reliance on military solution alone would not eliminate the 
scourge of terrorism unless the prevailing conditions such as poverty, 
and the despondency and despair, that it breeds are thoroughly 
addressed.
    We desire peace because hostilities exact a heavy toll in terms of 
human lives and divert resources which are better utilized to alleviate 
people's economic and social well-being. It was for this reason that we 
had engaged the CPP-NPA in peace talks. Unfortunately, they failed 
because of the CPP-NPA's repeated violations of the cease-fire 
agreement which underscored its bad faith. Moreover, it waged countless 
and relentless terroristic acts for which reason it was tagged as a 
terrorist organization by the United States and European Union.
    The Philippine Government has likewise engaged the Muslim 
secessionist groups, namely the Moro National Liberation Front (MNLF) 
and the Moro Islamic Liberation Front (MILF) in the peace process. 
Abandoning the ``all out war'' strategy of its antecedent 
administration, the Arroyo administration decided to adopt an ``all out 
peace'' strategy.
    Owing to U.S. economic assistance, about 28,000 former MNLF 
combatants have been reintegrated into our democratic mainstream and 
are gainfully pursuing various kinds of livelihood. USAID assistance to 
Muslim Mindanao, in southern Philippines, has generated US$441 million 
in investments and created 77,000 jobs. Around 60 percent of total 
USAID assistance to the Philippines has been channeled to this region. 
We wish to point out that U.S. economic assistance is administered by 
the USAID which ensures its responsible and cost-effective use.
    Complementing USAID's assistance is the U.S. Institute of Peace's 
(USIP) public diplomacy and awareness projects in Mindanao to sustain 
broad popular support for the peace process.
    We have a cease-fire agreement with the MILF which is holding. One 
unique aspect of this agreement is our joint conduct of 
counterterrorism operations as part of our confidence-building 
measures. We remain hopeful that this peace and development process 
will move forward. We are thankful for the U.S. Government's commitment 
that once a final peace accord between the Philippine Government and 
the MILF is forged, it will provide additional assistance for post-
conflict rehabilitation and economic programs.
    Integral to our efforts toward achieving durable peace and 
sustainable development in Muslim Mindanao are the interfaith dialogs, 
evident in the creation of a Bishop-Ulama Conference. This forum 
fosters religious tolerance and cultural understanding and which are 
essential aspects of respect for human rights.
    Related to this, we wish to convey our profound appreciation to the 
U.S. Embassy in the Philippines for the proactive programs it has 
initiated in promoting respect for and adherence to human rights, in 
promoting the rule of law, and in strengthening the judicial system in 
the Philippines. Some of these programs are instrumental in inculcating 
the values and principles of human rights among our military and police 
forces.
    We also appreciate the encouraging words of the U.S. Ambassador to 
the Philippines that our Government is on the right track in its 
efforts at addressing the issue of extrajudicial killings.
    U.N. Special Rapporteur Professor Alston himself recognized the 
Arroyo administration's ``willingness to permit outside scrutiny, and a 
very welcome preparedness to engage on this issue.''
    He also pointed out that ``the Government's invitation (for him) to 
visit (the Philippines) reflects a clear recognition of the gravity of 
the problem'' and that ``(it) showed good faith in responding to 
allegations by setting up an independent commission.''
    We are earnest in engaging all stakeholders and concerned parties 
who wish to become part of the solution as we strive to deal with this 
urgent issue.
    We are committed in strengthening our institutions and in building 
our capacity to eradicate a culture of violence which threatens our 
democratic way of life.
    It is in our national interest to build a culture of justice and we 
look forward to the partnership of this subcommittee and of the entire 
U.S. Congress in our pursuit of this goal.
    I wish to express my deep gratitude to Senator Barbara Boxer and to 
the honorable members of the Subcommittee on East Asian and Pacific 
Affairs for granting to me this privilege and opportunity to submit 
this statement on behalf of the Philippine Government, for the official 
record.
    Thank you very much.
                                 ______
                                 

   Summary Report of Prof. Phillip Alston, Special Rapporteur of the 
   United Nations Human Rights Council on Extrajudicial, Summary or 
            Arbitrary Executions--Manila, February 21, 2007

    I have spent the past 10 days in the Philippines at the invitation 
of the Government in order to inquire into the phenomenon of 
extrajudicial executions. I am very grateful to the Government for the 
unqualified cooperation extended to me. During my stay here I have met 
with virtually all of the relevant senior officials of Government. They 
include the President, the Executive Secretary, the National Security 
Adviser, the Secretaries for Defense, Justice, DILG and the Peace 
Process. I have also met with a significant number of Members of 
Congress on different sides of the political spectrum, the Chief 
Justice, the Chief of Staff of the Armed Forces of the Philippines 
(AFP), the Chair of the Human Rights Commission, the Ombudsman, the 
members of both sides of the Joint Monitoring Committee, and 
representatives of the MNLF and MILF. Of particular relevance to my 
specific concerns, I also met with Task Force Usig, and with the Melo 
Commission, and I have received the complete dossier compiled by TF 
Usig, as well as the report of the Melo Commission, and the responses 
to its findings by the AFP and by retired Major General Palparan. I 
have also visited Baguio and Davao and met with the regional Human 
Rights Commission offices, local PNP and AFP commanders, and the Mayor 
of Davao, among others.
    Equally importantly, roughly half of my time here was devoted to 
meetings with representatives of civil society, in Manila, Baguio, and 
Davao. Through their extremely valuable contributions in the form of 
documentation and detailed testimony I have learned a great deal.
    Let me begin by acknowledging several important elements. The first 
is that the Government's invitation to visit reflects a clear 
recognition of the gravity of the problem, a willingness to permit 
outside scrutiny, and a very welcome preparedness to engage on this 
issue. The assurances that I received from the President, in 
particular, were very encouraging. Second, I note that my visit takes 
place within the context of a counterinsurgency operation which takes 
place on a range of fronts, and I do not in any way underestimate the 
resulting challenges facing for the Government and the AFP. Third, I 
wish to clarify that my formal role is to report to the U.N. Human 
Rights Council and to the Government on the situation I have found. I 
consider that the very fact of my visit has already begun the process 
of acting as a catalyst to deeper reflection on these issues both 
within the national and international settings. Finally, I must 
emphasize that the present statement is only designed to give a general 
indication of some, but by no means all, of the issues to be addressed, 
and the recommendations put forward, in my final report. I expect that 
will be available sometime within the next 3 months.

                         SOURCES OF INFORMATION

    The first major challenge for my mission was to obtain detailed and 
well-supported information. I have been surprised by both the amount 
and the quality of information provided to me. Most key Government 
agencies are organized and systematic in much of their data collection 
and classification. Similarly, Philippines civil society organizations 
are generally sophisticated and professional. I sought, and obtained, 
meetings across the entire political spectrum. I leave the Philippines 
with a wealth of information to be processed in the preparation of my 
final report.
    But the question has still been posed as to whether the information 
provided to me by either all, or at least certain, local NGO groups can 
be considered reliable. The word ``propaganda'' was used by many of my 
interlocutors. What took them to mean was that the overriding goal of 
the relevant groups in raising EJE questions was to gain political 
advantage in the context of a broader battle for public opinion and 
power, and that the HR dimensions were secondary at best. Some went 
further to suggest that many of the cases were fabricated, or at least 
trumped up, to look more serious than they are.
    I consider it essential to respond to these concerns immediately. 
First, there is inevitably a propaganda element in such allegations. 
The aim is to win public sympathy and to discredit other actors. But 
the existence of a propaganda dimension does not, in itself, destroy 
the credibility of the information and allegations. I would insist, 
instead, on the need to apply several tests relating to credibility. 
First, is it only NGOs from one part of the political spectrum who are 
making these allegations? The answer is clearly ``no.''
    Human rights groups in the Philippines range across the entire 
spectrum in terms of their political sympathies, but I met no groups 
who challenged the basic fact that large numbers of extrajudicial 
executions are taking place, even if they disagreed on precise figures. 
Second, how compelling is the actual information presented? I found 
there was considerable variation ranging from submissions which were 
entirely credible and contextually aware all the way down to some which 
struck me as superficial and dubious. But the great majority are closer 
to the top of that spectrum than to the bottom. Third, has the 
information proved credible under cross-examination. My colleagues and 
I heard a large number of cases in depth and we probed the stories 
presented to us in order to ascertain their accuracy and the broader 
context.
    As a result, I believe that I have gathered a huge amount of data 
and certainly much more than has been made available to any one of the 
major national inquiries.

                           EXTENT OF MY FOCUS

    My focus goes well beyond that adopted by either TF Usig or the 
Melo Commission, both of which are concerned essentially with political 
and media killings. Those specific killings are, in many ways, a 
symptom of a much more extensive problem and we should not permit our 
focus to be limited artificially. The TF Usig/Melo scope of inquiry is 
inappropriate for me for several reasons:
          (a) The approach is essentially reactive. It is not based on 
        an original assessment of what is going on in the country at 
        large, but rather on what a limited range of CSOs report. As a 
        result, the focus then is often shifted (unhelpfully) to the 
        orientation of the CSO, the quality of the documentation in 
        particular cases, etc.;
          (b) Many killings are not reported, or not pursued, and for 
        good reason; and
          (c) A significant proportion of acknowledged cases of 
        ``disappearances'' involve individuals who have been killed but 
        who are not reflected in the figures.

                       HOW MANY HAVE BEEN KILLED?

    The numbers game is especially unproductive, although a source of 
endless fascination. Is it 25, 100, or 800? I don't have a figure. But 
I am certain that the number is high enough to be distressing. Even 
more importantly, numbers are not what count. The impact of even a 
limited number of killings of the type alleged is corrosive in many 
ways. It intimidates vast numbers of civil society actors, it sends a 
message of vulnerability to all but the most well connected, and it 
severely undermines the political discourse which is central to a 
resolution of the problems confronting this country.
    Permit me to make a brief comment on the term ``unexplained 
killings,'' which is used by officials and which consider to be inapt 
and misleading. It may be appropriate in the context of a judicial 
process but human rights inquiries are more broad-ranging and one does 
not have to wait for a court to secure a conviction before one can 
conclude that human rights violations are occurring. The term 
``extrajudicial killings'' which has a long pedigree is far more 
accurate and should be used.

                                TYPOLOGY

    It may help to specify the types of killing which are of particular 
concern in the Philippines:

--Killings by military and police, and by the NPA or other groups--in 
    course of counterinsurgency. To the extent that such killings take 
    place in conformity with the rules of international humanitarian 
    law, they fall outside my mandate.
--Killings not in the course of any armed engagement but in pursuit of 
    a specific counterinsurgency operation in the field.
--Killings, whether attributed to the military, the police, or private 
    actors, of activists associated with leftist groups and usually 
    deemed or assumed to be covertly assisting CPP-NPA-NDF. Private 
    actors include hired thugs in the pay of politicians, landowners, 
    corporate interests, and others.
--Vigilante, or death squad, killings.
--Killings of journalists and other media persons.
--``Ordinary'' murders facilitated by the sense of impunity that 
    exists.

                      RESPONSE BY THE GOVERNMENT.

    The response of Government to the crisis of extrajudicial 
executions varies dramatically. There has been a welcome 
acknowledgement of the seriousness of the problem at the very top. At 
the executive level the messages have been very mixed and often 
unsatisfactory. And at the operational level, the allegations have too 
often been met with a response of incredulity, mixed with offence.

                         EXPLANATIONS PROFFERED

    When I have sought explanations of the killings I have received a 
range of answers.
    (i) The allegations are essentially propaganda. I have addressed 
this dimension already.
    (ii) The allegations are fabricated. Much importance was attached 
to two persons who had been listed as killed, but who were presented to 
me alive. Two errors, in circumstances which might partly explain the 
mistakes, do very little to discredit the vast number of remaining 
allegations.
    (iii) The theory that the ``correct, accurate, and truthful'' 
reason for the recent rise in killings lies in purges committed by the 
CPP/NPA. This theory was relentlessly pushed by the AFP and many of my 
Government interlocutors. But we must distinguish the number of 1,227 
cited by the military from the limited number of cases in which the 
CPP/NPA have acknowledged, indeed boasted, of killings. While such 
cases have certainly occurred, even those most concerned about them, 
such as members of Akbayan, have suggested to me that they could not 
amount to even 10 percent of the total killings.
    The evidence offered by the military in support of this theory is 
especially unconvincing. Human rights organizations have documented 
very few such cases. The AFP relies instead on figures and trends 
relating to the purges of the late 1980s, and on an alleged CPP/NPA 
document captured in May 2006 describing Operation Bushfire. In the 
absence of much stronger supporting evidence this particular document 
bears all the hallmarks of a fabrication and cannot be taken as 
evidence of anything other than disinformation.
    (iv) Some killings may have been attributable to the AFP, but they 
were committed by rogue elements. There is little doubt that some such 
killings have been committed. The AFP needs to give us precise details 
and to indicate what investigations and prosecutions have been 
undertaken in response. But, in any event, the rogue elephant theory 
does not explain or even address the central questions with which we 
are concerned.

                  SOME MAJOR CHALLENGES FOR THE FUTURE

(a) Acknowledgement by the AFT
    The AFP remains in a state of almost total denial (as its official 
response to the Melo Report amply demonstrates) of its need to respond 
effectively and authentically to the significant number of killings 
which have been convincingly attributed to them. The President needs to 
persuade the military that its reputation and effectiveness will be 
considerably enhanced, rather than undermined, by acknowledging the 
facts and taking genuine steps to investigate. When the Chief of the 
AFP contents himself with telephoning Major General Palparan three 
times in order to satisfy himself that the persistent and extensive 
allegations against the General were entirely unfounded, rather than 
launching a thorough internal investigation, it is clear that there is 
still a very long way to go.
(b) Moving beyond the Melo Commission
    It is not for me to evaluate the Melo Report. That is for the 
people of the Philippines to do. The President showed good faith in 
responding to allegations by setting up an independent commission. But 
the political and other capital that should have followed is being 
slowly but surely drained away by the refusal to publish the report. 
The justifications given are unconvincing. The report was never 
intended to be preliminary or interim. The need to get ``leftists'' to 
testify is no reason to withhold a report which in some ways at least 
vindicates their claims. And extending a commission whose composition 
has never succeeded in winning full cooperation seems unlikely to cure 
the problems still perceived by those groups. Immediate release of the 
report is an essential first step.
(c) The need to restore accountability
    The focus on TF Usig and Melo is insufficient. The enduring and 
much larger challenge is to restore the various accountability 
mechanisms that the Philippines Constitution and Congress have put in 
place over the years, too many of which have been systematically 
drained of their force in recent years. I will go into detail in my 
final report, but suffice it to note for present purposes that 
Executive Order 464, and its replacement, Memorandum Circular 108, 
undermine significantly the capacity of Congress to hold the Executive 
to account in any meaningful way.
(d) Witness protection
    The vital flaw which undermines the utility of much of the judicial 
system is the problem of virtual impunity that prevails. This, in turn, 
is built upon the rampant problem of witness vulnerability. The present 
message is that if you want to preserve your life expectancy, don't act 
as a witness in a criminal prosecution for killing. Witnesses are 
systematically intimidated and harassed. In a relatively poor society, 
in which there is heavy dependence on community and very limited real 
geographical mobility, witnesses are uniquely vulnerable when the 
forces accused of killings are all too often those, or are linked to 
those, who are charged with ensuring their security. The WPP is 
impressive--on paper. In practice, however, it is deeply flawed and 
would seem only to be truly effective in a very limited number of 
cases. The result, as one expert suggested to me, is that 8 out of 10 
strong cases, or 80 percent fail to move from the initial investigation 
to the actual prosecution stage.
(e) Acceptance of the need to provide legitimate political space for 
        leftist groups
    At the national level there has been a definitive abandonment of 
President Ramos' strategy of reconciliation. This might be termed the 
Sinn Fein strategy. It involves the creation of an opening--the party-
list system--for leftist groups to enter the democratic political 
system, while at the same time acknowledging that some of those groups 
remain very sympathetic to the armed struggle being waged by illegal 
groups (the IRA in the Irish case, or the NPA in the Philippines case). 
The goal is to provide an incentive for such groups to enter mainstream 
politics and to see that path as their best option.
    Neither the party-list system nor the repeal of the Anti-Subversion 
Act has been reversed by Congress. But, the executive branch, openly 
and enthusiastically aided by the military, has worked resolutely to 
circumvent the spirit of these legislative decisions by trying to 
impede the work of the party-list groups and to put in question their 
right to operate freely. The idea is not to destroy the NPA but to 
eliminate organizations that support many of its goals and do not 
actively disown its means. While nonviolent in conception, there are 
cases in which it has, certainly at the local level, spilled over into 
decisions to extrajudicially execute those who cannot be reached by 
legal process.
(f) Reevaluate problematic aspects of counterinsurgency strategy
    The increase inextrajudicial executions in recent years is 
attributable, at least in part, to a shift in counterinsurgency 
strategy that occurred in some areas, reflecting the considerable 
regional variation in the strategies employed, especially with respect 
to the civilian population. In some areas, an appeal to hearts and 
minds is combined with an attempt to vilify left-leaning organizations 
and to intimidate leaders of such organizations. In some instances, 
such intimidation escalates into extrajudicial execution. This is a 
grave and serious problem and one which intend to examine in detail in 
my final report.

                               CONCLUSION

    The Philippines remains an example to all of us in terms of the 
peaceful ending of martial law by the People's Revolution, and the 
adoption of a constitution reflecting a powerful commitment to ensure 
respect for human rights. The various measures ordered by the President 
in response to Melo constitute important first steps, but there is a 
huge amount that remains to be done.
                                 ______
                                 

Response of Deputy Assistant Secretary Eric John to Question Submitted 
               for the Record by Senator Richard G. Lugar

    Question. The FY08 budget outline reflects a major drop in foreign 
assistance for the Philippines. The proposed cut in the FY08 budget 
request is $28.5 million below the FY 2006 funding level. Democracy and 
governance programs were cut from $13.1 million to $8.1 million, and 
FMF programs from $29.7 million to $11.1 million.
    What is the rationale for this drastic change in financial 
assistance to the Philippines? The figures suggest that the Philippines 
is no longer a key component in the U.S. war against terror. How was 
this calculation achieved? How will Philippine reformers view the 
zeroing out of anticorruption efforts? How will this cut in funding 
impact efforts to further promote the rule of law and democracy in the 
Philippines?

    Answer. The Philippines remains an important treaty ally and 
partner of the United States. Our relations are based on our history, 
shared values, and personal ties, with more than 3 million Filipinos 
resident in the United States and more than 100,000 American citizens 
living in the Philippines. We are pleased with United States-
Philippines cooperation on issues that affect the region and the 
international community, including U.S. support for the Philippine 
Government's considerable recent success against al-Qaeda-linked 
terrorists.
    The Department reduced its FY08 request for assistance to the 
Philippines not because we value our alliance any less, but because of 
the tough decisions required in a constrained budget. In addition, the 
Philippine Government has decided to increase its budgetary 
contribution to key areas, reducing the need for U.S. funding.
    Our most important goal in FY 2008 remains counterterrorism and 
promoting stability and security, not only in the Philippines, but in 
the southeast Asian region. About 60 percent of our development 
resources will continue to be directed to conflict-affected Mindanao. 
In addition, the United States continues its longstanding support for 
institutional reform within the Armed Forces of the Philippines and the 
Philippine National Police. Besides bolstering these forces' 
capabilities, our support of these institutional reforms also seeks to 
improve respect for human rights. The Philippine Government has 
contributed $4 million of its own funding to this effort, and we 
encourage this partnership.
    Despite the substantial budget challenges we face, we recognize the 
need to continue and even enhance our most critical democracy and 
governance program activities. Democracy funding is concentrated on 
promoting good governance, where it will best support the success of 
the 2-year $21 million MCC Threshold Program, which focuses on 
supporting Philippine anticorruption efforts. Our programs to support 
judicial reform, improve economic governance, and strengthen local 
governance also contribute to anticorruption efforts. President Arroyo 
has announced that the Philippine Government will contribute $21 
million of its own matching funds to this effort.
                                 ______
                                 

Responses of Deputy Assistant Secretary Eric John and Principal Deputy 
  Assistant Secretary Jonathan Farrar to Questions Submitted for the 
                     Record by Senator Norm Coleman

    Question. Role of the Philippine Military: Philip Alston, the U.N. 
expert on extrajudicial executions, stated in his initial findings 
that: ``The Armed Forces of the Philippines remains in a state of 
almost total denial of its need to respond effectively and 
authentically to the significant number of killings which have been 
convincingly attributed to them.'' An Amnesty International Press 
release dated February 23 states: ``The Body of Evidence is now so 
compelling that it can no longer be ignored: There is substantial 
confirmation of the pattern of political killings in the Philippines.'' 
Amnesty International and other investigative teams report that many of 
the victims have been threatened by the military, including being 
informed that their names are on an ``order of battle'' list indicating 
who should be targeted in offensive military operations.

  <bullet> Do you agree with these statements? Do you believe the 
        killings, harassment, and disappearances taking place in the 
        Philippines are being conducted by the Armed Forces of the 
        Philippines?
  <bullet> Do local commanders have a list of targeted members of legal 
        organizations?

    Answer. We are concerned about unlawful killings in the 
Philippines, whoever may be responsible, but particularly about 
allegations that members of the security forces have been involved. As 
the State Department's ``Country Report on Human Rights Practices'' 
indicates, elements of the military and the police apparently were 
involved in some of the killings. We have strongly urged, and will 
continue to encourage, the Philippine Government to investigate 
thoroughly any alleged involvement by its security forces in these 
killings and to bring the perpetrators to justice. We have heard 
reports from NGOs that local military units list ``enemies of the 
state'' in a presentation made to local communities and that an ``order 
of battle'' list may exist; however, we are unable to confirm the 
existence of these lists.

    Question. Impunity: What is being done to bring the killers to 
justice and address the apparent climate of impunity in the 
Philippines?

  <bullet> If the military has evidence of illegal activities, why are 
        the perpetrators not arrested and brought into the justice 
        system?

    Answer. We are encouraged that President Arroyo has taken several 
steps to address this problem. We were pleased that the Arroyo 
administration decided to make the Melo Commission findings public and 
is taking steps to implement Commission recommendations. We also note 
that President Arroyo invited the U.N. Special Rapporteur on 
Extrajudicial, Summary or Arbitrary Executions, Mr. Phillip Alston, to 
conduct a 10-day fact-finding mission in February. No previous 
Philippine Government has done as much substantively and 
institutionally as the Arroyo administration has done to address this 
issue. President Arroyo's initiatives include establishing a police 
task force, called Task Force Usig (``to prosecute''), to investigate 
the killings and to file charges against the perpetrators, as well as a 
Presidential commission under the leadership of former Philippine 
Supreme Court Justice Melo. The Melo Commission has examined this 
problem and made policy recommendations, on which the government has 
promptly acted.
    Following the Melo Commission report, the Armed Forces of the 
Philippines issued a new directive reiterating the principle of command 
responsibility and established a human rights office to investigate--
along with the Philippine Commission on Human Rights--cases in which 
military involvement is alleged. President Arroyo ordered the 
Philippine Department of Justice to strengthen and expand the 
government's witness protection program. At President Arroyo's request, 
the Philippine Supreme Court has established special courts to handle 
these cases. President Arroyo also instructed the Department of Justice 
and the Presidential Human Rights Committee to give priority to cases 
for trial by these special courts. In addition, President Arroyo 
ordered the release of 25 million pesos (US$500,000) to the Commission 
on Human Rights (CHR), which the CHR will use to establish human rights 
centers in local communities.
    U.N. Special Rapporteur Alston's report cites the Philippine 
Government's recognition of the gravity of the problem, expresses 
concern about the views of the Armed Forces of the Philippines (AFP) 
regarding the situation, and states that the various measures ordered 
by President Arroyo in response to the Melo Commission report 
constitute important first steps, but much remains to be done. We 
concur with that assessment.
    According to the records of Task Force Usig, Philippine authorities 
have filed charges in 50 cases of extradjucial killings, with 10 
individuals under arrest and 27 suspects at large. At least 11 cases 
have alleged links to the military, with criminal charges filed in 6 
cases already, while 29 cases have alleged links to the Communist Party 
of the Philippines/New People's Army (CPP/NPA). Another 60 cases remain 
under investigation.

    Question. U.S. Assistance: Given the United States significant role 
in the arming and training of the AFP, how can the U.S. Congress and 
the American people be sure that our tax dollars and soldiers are not 
contributing to this crisis?

  <bullet> What accountability measures are in place to track U.S. 
        military aid to the AFP?

    Answer. As required by the Leahy amendment, all candidates for U.S. 
Government sponsored training who are members of the Philippine 
security forces, both military and police, are thoroughly vetted before 
approval. This includes training in the United States, in the 
Philippines, or elsewhere, including the International Law Enforcement 
Academy in Bangkok.
    The U.S. Embassy in Manila submits names of candidates for vetting 
to the constitutionally mandated Philippine Commission on Human Rights 
(CHR) and the Philippine National Bureau of Investigation. 
Concurrently, vetting is conducted by the U.S. Embassy, including the 
Consular Section, the Regional Security Office, and other USG agencies, 
such as the Drug Enforcement Administration.
    If there is no locally available questionable information on the 
candidate, the Embassy then forwards the name of candidate or unit to 
the State Department in Washington for another tier of vetting that 
also includes the Department of Defense, FBI, and CIA. Once the Embassy 
receives notification back from the Department's office in Washington 
that it possesses no credible information of gross violations of human 
rights by the candidate, they are permitted to attend training. 
Candidates for whom questionable information is available have been and 
will continue to be excluded from receiving U.S. assistance.
    In addition to these immediate efforts to protect the integrity of 
our training programs, the United States has provided longstanding 
support for institutional reform within the AFP and the Philippine 
National Police, as well as the Philippine judiciary. This assistance 
has included human rights training for Philippine security forces. The 
United States is also a firm supporter of Philippine Defense Reform, 
which aims to strengthen a professional and effective military that 
respects and protects civil liberties and human rights.

    Question. Press Freedoms: What is the status of press freedoms in 
the Philippines?

  <bullet> To what do you attribute the larger numbers of journalists 
        murdered in the Philippines in recent years?
  <bullet> Dana Dillon from the Heritage Foundation has stated that 
        ``No one claims President Arroyo ordered or knew of any of the 
        killings of reporters. But government foot-dragging when it 
        comes to apprehending the killers is unacceptable for a country 
        that receives such large amounts of American aid.'' Do you 
        agree with this statement?

    Answer. Philippine law provides for freedom of speech and of the 
press, and, except for a few instances during a week-long imposition of 
a state of national emergency, the government has generally respected 
these rights in practice. The media are active and express a wide 
variety of views without restriction. Broadcast and print media are 
freewheeling and are often criticized for lacking rigorous journalistic 
ethics. They tend to reflect the particular political or economic 
orientations of owners, publishers, or patrons, some of whom are close 
associates of present or past high-level officials. Special interests 
often use bribes and other inducements to solicit one-sided and 
erroneous reports and commentaries that support their positions.
    Journalists continued to be murdered. The National Union of 
Journalists of the Philippines (NUJP) recorded 12 journalists killed in 
2006. Task Force Usig classified two of these cases as work-related 
slayings. According to the task force, 7 of more than 70 cases of 
journalist killings since 1986 resulted in convictions. In many cases, 
the suspected killers were local government officials retaliating 
against
``hard-hitting reporters.'' It is difficult to determine definitively 
who was responsible given the low number of convictions in these cases. 
Two mayors and two village chairmen have already surrendered, with 
charges now filed against them. Two police and one soldier have been 
arrested in other cases. Out of 26 cases involving journalists from 
2001-07, the police have filed cases in 21 and are still investigating 
the remaining 5.
    We take this problem seriously, and are committed to helping our 
Philippine allies bring those responsible to justice. We are encouraged 
by the steps that the Philippine Government has taken to date, but we 
will continue to make clear that more progress is essential and that we 
stand ready to be of assistance.
    In respect to Philippine journalism we currently have a State 
Department Human Rights and Democracy Fund (HRDF) grant awaiting 
congressional notification that will help Filipino media reduce 
sensationalist reporting, highlight the human cost of ongoing violent 
conflict, and encourage reconciliation and reasoned debate. This 
project will contribute to democracy and human rights by working to 
make the media a more constructive and responsible force for social and 
political cohesion, and will create a national association of human 
rights journalists.

    Question. New People's Army: Please explain the rationale for 
placing the New People's Army on the U.S. State Department list of 
international terrorist organizations.

  <bullet> What has been the effect on the ongoing peace negotiations 
        with the National Democratic Front?
  <bullet> Has the placement of the NPA on the terrorism list diverted 
        the focus from the pursuit of radical Islamic terrorists?
  <bullet> Do you believe there has been an increased destabilization 
        in the Philippines countryside? If so, to what do you attribute 
        this unrest, and do you believe that unrest has been exploited 
        by the NPA in their recruiting?

    Answer. The Communist Party of the Philippines/New People's Army 
(CPP/NPA) has been seeking the violent overthrow of the Philippine 
Government since the 1970s. Two CPP/NPA members were convicted in 
connection with the 1989 murder of Col. James ``Nick'' Rowe, the deputy 
commander of the Joint U.S. Military Advisory Group.
    The Communists broke off peace negotiations in August 2004 after 
the Philippine Government refused to ask the United States and the 
European Union to remove the CPP/NPA from their lists of foreign terror 
organizations. We have consistently stated that we are willing to 
examine the question of removing the CPP/NPA from the list once it 
fully renounces terrorism in pursuit of its political objectives.
    The Philippine Government is combating multiple insurgencies and 
terrorist groups. The CPP/NPA's violent nationwide insurgency has 
forced the Philippine Government to divert resources from combating 
jihadist terrorists. Nonetheless, Philippine Armed Forces have been 
able to achieve major successes against al-Qaeda linked Jemaah 
Islamiyah and Abu Sayyaf Group terrorists in Mindanao and the Sulu 
Archipelago. Recent successful military operations led to the deaths of 
Abu Sayyaf Group Leader Khadaffy Janjalani and Operations Chief Abu 
Solaiman.
    While we don't see any increased destabilization in the Philippines 
countryside, we note that the CPP/NPA regularly attacks AFP and 
Philippine National Police units and installations and targets their 
officers and government officials for assassination. The CPP/NPA 
continues to extort money from local businesses and demand ``permit to 
campaign fees'' from politicians in areas under its control.

                                  <all>

</pre></body></html>
